<html>
<title> - HEARING ON IMPEDIMENTS TO VOTER ENFRANCHISEMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
            HEARING ON IMPEDIMENTS TO VOTER ENFRANCHISEMENT

=======================================================================]


                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

           HEARING HELD IN PHILADELPHIA, PA, OCTOBER 5, 2007

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

40-510 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                 COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


            HEARING ON IMPEDIMENTS TO VOTER ENFRANCHISEMENT

                              ----------                            


                        FRIDAY, OCTOBER 5, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in room 
400 of Philadelphia City Hall, Hon. Robert Brady (chairman of 
the subcommittee) presiding.
    Members Present: Representatives Brady and Lofgren.
    The Chairman. I would like to call our hearing of the 
Committee on House Administration to order, and I know all of 
our witnesses are here and I ask them if they wouldn't mind 
please taking the witness table.
    First of all, and in my mind most importantly, I want to 
thank Zoe Lofgren for coming here. Zoe is also the Vice-
Chairwoman of this Committee, and she is the Chairperson of the 
Subcommittee on Elections. She is from the great state of 
California, a long way from here, and she graciously agreed to 
come and spend a couple of hours with us today, then we are 
going to try to let her see some of our great sights in the 
City of Philadelphia. If anyone has any recommendations, we 
could surely use them. Thank you for participating in this 
hearing and enjoying our city.
    We have with us today the Deputy Secretary of 
Administration Thomas Weaver, Commissioner Edgar Howard, 
Chairperson of the Commissioners, and Commissioner Marge 
Tartaglione and Mr. Bobby Lee, who has been around, as long as 
this building has been around. I appreciate your participation. 
It is my pleasure to be here and call this hearing to order. 
Members of the committee, witnesses and guests, I am pleased to 
bring the Committee on House Administration to Philadelphia 
today to discuss Impediments to Voter Enfranchisement. The 
right to vote and access to the polls are fundamental to our 
democracy. I want to get this hearing on the record. I want to 
get your testimony on the record, because there are a few 
things happening in the Supreme Court, and there are a lot of 
things happening in the United States of America. We want to be 
able to say that our city has one of the best voting systems in 
the nation. I have all the expert witnesses. We also invited--
in our city we have three Commissioners--a Congresslady, and 
one is of the minority, and we invited the minority 
Commissioner, Mr. Joe Duda, and hoped that he would come. He is 
a Commissioner of the Republican Party. So this is a bipartisan 
hearing. Since this nation was founded, we expanded the right 
to vote to include non-land owners, minorities, women, and 18-
year-old citizens. I am interested in learning how today's 
witnesses have overcome problems with casting ballots.
    We will hear suggestions on improving the voting process. 
In 2000, the nation and the world watched Florida's recount. It 
took 30-plus days for the Supreme Court to decide the outcome 
of the presidential race. We will all remember the problems 
with that election, the ballots and the hanging chads. The only 
Chad I knew of prior to that election was Chad Everett, and now 
we know of all kinds of pregnant chads and dangling chads and 
all different kinds of chads. In some ways that helped us and 
led to the passage of the Help America Vote Act. This committee 
had a lot to do with getting that bill through Congress. 
Traditionally, states have paved the course for running 
elections. States and counties have been forced to decide 
between funding the maintenance of roads, construction of 
schools, and a lot of other programs. In 2002, for the first 
time in the nation's history, they provided federal money to 
run federal elections. I know it was never enough, and we have 
to try to increase that. Here in Philadelphia, plenty of 
attempts have been made to disenfranchise poor and minority 
voters through intimidation and suppressive tactics. I expect 
we will hear a few stories today. One of the worst stories I 
have ever heard took place in a Milwaukee African-American 
neighborhood in 2004. An entire neighborhood was blanketed with 
misleading fliers from a fictional Milwaukee black voters' 
league. These fliers falsely claimed that voters could be 
ineligible to vote if they violated traffic laws, if any family 
members had criminal records, or if they voted in a previous 
election that year, they didn't need to vote this year. That 
sort of manipulation must be stopped. Another voting obstacle 
threatens voters across the nation. A handful of states have 
increased ID requirements at the polls. In fact, the Supreme 
Court is set to hear a case this term on the voter ID issue. 
The Committee will pay close attention to that case. If these 
voter ID laws are upheld, poor, elderly, minority, and disabled 
voters will be discouraged from voting. Congress should be 
working to ensure that every individual that is eligible to 
vote will be able to do so. We should not be in the business of 
creating roadblocks for Americans who qualify to vote. 
Dedicated public servants, volunteers, and community-based 
organizations, like the ones we will hear from today, have been 
helping to monitor and combat problems voters face on Election 
Day. Additionally, this year the House of Representatives took 
a major step to prevent voter intimidation and misleading 
tactics by passing the Deceptive Practices and Voter 
Intimidation Prevention Act. This legislation will go a long 
way to prevent misleading fliers and misleading information 
from being distributed. Overcoming these barriers and expanding 
opportunities at the voting booth are priorities of this 
committee. We have a lot of work ahead of us, but we are on top 
of it, and we are ready for the challenge.
    Earlier this year a federal court upheld one of the most 
restrictive ID laws in the country. The Indiana law created 
unnecessary obstacles to citizens participating in federal 
elections and is nothing short of voter-suppression. I think it 
is unconstitutional in its application, and I intend to 
participate by filing an amicus brief with the Supreme Court, 
challenging the constitutionality of the law.
    My constituents are among those who would be most affected 
were this type of law extended to Pennsylvania, and I will not 
sit idly by as the constitutional rights of my constituents are 
eroded. Justified on the basis of administrative convenience, I 
will commit more to this issue in the future. I just want to 
briefly talk about this voter ID card. We have been through 
these hearings, Ms. Lofgren more than I have, being the 
Chairwoman on the Subcommittee on Elections, and we have heard 
about these voter ID cards. The best example I have is my mom. 
My mom is 85 years old. She doesn't drive anymore, though she 
may still have her driver's license, I know it is probably not 
current. She doesn't have a passport, nor do I. She doesn't 
have a birth certificate, nor do I. If we need them, we get 
them as we need them, and I don't have a copy of that. These 
are some of the things that can be used, plus some bills that 
you pay for instance, an electric bill, heat bill or, water 
bill. A lot of people that live in public housing don't have 
those bills. These are some of the ID requirements that she 
would need to get a free ID voter card. So they say it is not 
an unfunded mandate, but we believe that it is, because to get 
the certificates that you need to get the ID card, you have to 
pay for them. Not only do you have to pay for them, but you 
also have to come into town or go someplace to get them, and 
that is an inconvenience. The last thing we need, is to set any 
kind of inconvenience up for any one of our people that want to 
come out and vote. We need to clear up those obstacles, not 
create more. That is the purpose of this hearing, and to get on 
the record and hear your thoughts and be able to take them back 
to Washington and have some documentation on the record that we 
can use for ammunition. We have to fight. We have to fight to 
make sure that that doesn't happen. So again, it is my distinct 
pleasure to introduce for her remarks Zoe Lofgren, the 
gentlelady from California. Again, I thank you for your 
participation.
    [The statement of Mr. Brady follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.001
    
    [GRAPHIC] [TIFF OMITTED] 40510A.002
    
    [GRAPHIC] [TIFF OMITTED] 40510A.003
    
    [GRAPHIC] [TIFF OMITTED] 40510A.004
    
    Ms. Lofgren. Well, thank you very much, Mr. Chairman, and 
thank you for holding this hearing, and thanks to the City of 
Philadelphia for letting us be in this beautiful room in this 
beautiful city.
    I think this is an important topic for Philadelphia but 
also for the country. The Constitution says now, after much 
hard work over the decades, that all Americans get to vote. And 
so we need to examine when that right is threatened through 
procedural matters or the like. We need to make sure that if 
there are voter registration problems that prevent Americans 
from casting their votes that we address that. We need to 
attend to the lack of minority language election materials, 
when those are necessary. Make sure that the purging of voter 
lists doesn't improperly remove Americans who should be able to 
cast their votes. And that intimidation and other improper 
actions, such as intentional misinformation, doesn't have the 
effect of precluding Americans from voting.
    You have mentioned quite properly the voter ID requirement. 
This is something that is now occurring across the United 
States, and I think it is pretty obvious that it is an effort 
to prevent Americans who are low income from exercising their 
right to vote. Earlier this week, we had on another subject a 
witness before the Election Subcommittee, from Arizona, who 
told us--I was stunned--that if you come to the polls in 
Arizona with a United States passport, it is not good enough. 
They still won't let you vote. It is not a sufficient voter ID. 
So I think we have a serious problem here. I commend the 
Chairman for his leadership in stepping forward. Certainly we 
know that the court may act, but they will act to decide 
whether a statute is constitutional or not. That really doesn't 
address the question of whether Congress should step in and 
make sure that these voter ID laws are not used to preclude 
low-income Americans and elderly Americans from exercising 
their basic American right. I thank the Chairman for 
recognizing me.
    The Chairman. I thank the lady. Also I agree. I would like 
to thank Council President Anna Verna for allowing us to use 
these chambers and allowing us to have access to the staff and 
I thank the staff for being here today and for putting up with 
us for a couple hours. She is a lovely lady, and I do 
appreciate the Council President's courtesies.
    What we would like to do is, we would like to hear 
testimony from our witnesses. We have a clock that I am not 
going to use. We are usually strict in Washington, but this is 
the City of Philadelphia. As Commissioner Howard said, this is 
the city of brotherly love and sisterly affection. So we will 
disregard the timer. We would like you to keep your remarks 
under five minutes. We will hear testimony from all four 
witnesses, and then we would hope that you could stay around 
and we will have some questions at the end. So, Deputy 
Secretary of Administration, Mr. Thomas Weaver, you may go 
first. Thank you.

    STATEMENTS OF THOMAS WEAVER, DEPUTY SECRETARY OF STATE, 
COMMONWEALTH OF PENNSYLVANIA; MARGARET TARTAGLIONE, CHAIRWOMAN, 
     PHILADELPHIA CITY COMMISSIONERS; AND EDGAR A. HOWARD, 
         COMMISSIONER, PHILADELPHIA CITY COMMISSIONERS

                   STATEMENT OF THOMAS WEAVER

    Mr. Weaver. Thank you, Congressman and Congresswoman 
Lofgren, good morning. It is certainly a pleasure to be here 
this morning. And on behalf of Secretary Cortes, thank you for 
the invitation to appear and to discuss what you folks have 
already outlined as one of our most fundamental principles in 
our democracy, the importance of voting and ensuring a 
successful vote and voter participation.
    Among its wide range of administrative responsibilities 
that affect all Pennsylvanians, the Pennsylvania Department of 
State oversees the elections process for all of Pennsylvania's 
67 counties. Today I will briefly discuss how the Department 
works with counties to encourage voter participation and ensure 
that the Commonwealth has elections that are fair, accurate, 
and accessible.
    I will also comment on any potential challenges that 
discourage broad voter participation, particularly proposals to 
require photo identification in order to cast a ballot.
    As you are aware, and as you already mentioned, the federal 
Help America Vote Act of 2002 set forth numerous mandates, 
including standards for voting systems used in federal 
elections occurring after January 1, 2006. For Pennsylvania, 
that first election was the May primary of 2006. 12 systems are 
currently certified for use in Pennsylvania. These systems go 
through a two-tier testing process before the Secretary of the 
Commonwealth certifies them for use. The testing, coupled with 
the county's procedures and carefully monitored chain of 
custody, ensures that the votes cast will be accurately 
recorded and fairly counted. HAVA also sets forth requirements 
for accessibility and HAVA-compliant voting systems, allowing 
many voters with disabilities to vote independently for the 
first time.
    In addition to accessible voting systems, the Department 
has implemented an initiative to work to make polling places 
more accessible. In addition to physical access, the need for 
access also extends to those with limited English proficiency. 
The Department is committed to providing the right to vote to 
all and has translated many forms into several languages. 
Currently present in Pennsylvania, the languages include 
Chinese, Korean, Russian, French, Cambodian, and Spanish.
    In addition, the Department created a voting guide for new 
citizens, which was one of the first of its kind in the nation. 
The guide encourages our new citizens to become members of our 
democratic process. It is distributed at citizenship ceremonies 
and is being translated right now into five different 
languages. Another way to ensure fair, accurate, and accessible 
elections is to provide access to poll worker training. With 
input from counties, reviewing and updating the current 
election official and poll worker training certification 
programs, the Department is currently revising materials to 
incorporate two new sensitivity training programs for people 
with limited English proficiency and for people with 
disabilities. A video is also being created with HAVA funds to 
assist counties with training. Emphasizing procedures from the 
minute the polls open, to handling provisional ballots, 
canvassing the results, will be the goal of the training. We 
believe that better-informed poll workers will lead to better 
elections, and this training of elections officials is a top 
priority for the Department.
    Public education, though, is also critical. To meet the 
need for voter education, the state created Ready, Set, Vote, a 
state-wide voter education and outreach campaign developed in 
2006. This multi-media campaign covered topics ranging from 
basic voter registration information to voter education about 
HAVA-compliant voting systems. The effort includes outreach 
campaigns to a range of communities across the state and 
reached hundreds of thousands of Pennsylvanians for the 2006 
primary and general elections. The next phase of the campaign 
for 2008 is currently underway and in the developmental stage.
    I have covered how Pennsylvania works toward fair, 
accurate, and accessible elections. Now I want to turn my 
attention to the potential challenges that discourage broad 
voter participation, particularly proposals to require photo 
identification in order to cast a ballot. Reading numerous 
press reports, you hear of various types of impediments to 
voting, such as proposals to penalize groups for late 
registrations and legislation requiring proof of citizenship or 
proof of photo identification in order to vote.
    In Pennsylvania, Governor Edward Rendell vetoed such a bill 
in 2006. In his veto message he stated--in quoting the 
Governor, he said, ``At a time of growing apathy and cynicism 
among our citizens regarding elections, I believe that the 
government should be doing everything it can to encourage 
greater participation in the electoral process, not 
discouraging participation by placing additional limitations on 
the right to cast a vote. Moreover, without compelling evidence 
of a problem with the current system of voter identification in 
Pennsylvania, I see no reason to enact laws that will result in 
voter confusion, disenfranchisement to legitimately-registered 
voters. Some proponents of the bill claim that no one is 
actually being denied the right to vote. The voters are merely 
being asked to comply with a simple requirement meant to reduce 
the instances of voter fraud. They point to various acceptable 
forms of identification that are listed in the bill as support 
for their defense, that the provision is not an attempt to 
suppress turnout. Regardless of how long the list is of 
acceptable forms of identification, there are people who may 
not be in a position to produce any of them. People who live in 
a household where they lease, and utility bills are in someone 
else's names, people in nursing homes, and those who may have 
been temporarily displaced from the residence, to name just a 
few. As Federal Judge Harold Murphy very eloquently stated in a 
recent case discussing a similar bill enacted in Georgia, for 
those citizens, the character and magnitude of their injury, 
the loss of the right to vote, is undeniably demoralizing, 
extreme, as those citizens are likely to have no other 
realistic or effective means of protecting their rights. Others 
have suggested that this voter identification provision is 
needed to reduce the instances of voter fraud in Pennsylvania. 
However, I have not seen yet any evidence of widespread voter 
fraud impersonation in Pennsylvania that would justify imposing 
this additional burden on voters.''
    The Governor noted that the National Commissions on 
Election Reform found that there is no evidence that fraudulent 
acts the voter ID provision seeks to address exist anywhere in 
the United States. Voter photo ID requirements also would slow 
the voting process, create longer waiting periods before 
citizens could cast their votes. The result would likely be 
longer lines, longer wait times, which may serve to 
additionally disenfranchise voters and suppress turnout.
    Mr. Chairman, Congresswoman, thank you again for the 
opportunity to be here and certainly be available for 
questions.
    [The statement of Mr. Weaver follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.005
    
    [GRAPHIC] [TIFF OMITTED] 40510A.006
    
    [GRAPHIC] [TIFF OMITTED] 40510A.007
    
    [GRAPHIC] [TIFF OMITTED] 40510A.008
    
    [GRAPHIC] [TIFF OMITTED] 40510A.009
    
    The Chairman. Thank you, and thank you for your testimony. 
Commissioner Howard.
    Mr. Howard. I will let the Chairperson speak first.
    The Chairman. Chairperson Marge Tartaglione.

              STATEMENT OF MARGARET M. TARTAGLIONE

    Ms. Tartaglione. Good morning. I am Margaret M. 
Tartaglione, Chairwoman of the City Commissioners. The City 
Commissioners are elected officials responsible for 
administration of voter registration and conduct of federal, 
state, and local elections in Philadelphia County. I have been 
an elected City Commissioner since 1976 and have experienced 
many changes in the election law.
    The National Voter Registration Act of 1993, the 
opportunity for citizens to register and feel safe voting, to 
ensure they remain registered and eligible to vote and provide 
valuable information to the Commissioners in maintaining the 
accuracy and current of eligible voter files. The unfounded 
mandate also places substantial added responsibility on ongoing 
annual operations and cost to the county.
    In 2002, in the welcome departure from the past practice of 
federal and state government, Congress passed a Help America 
Vote Act, which included funds to partially pay for the costs 
of implementing and mandating changes. The Help America Vote 
Act, HAVA, particularly reimbursed Philadelphia for the cost of 
our successful switch from aging mechanical lever voting 
machines to a proven accurate, responsible, durable, and 
efficient electronic voting system. HAVA funds were also used 
to upgrade the electronic machines for 2002 standards and 
improve accessibility for the visually impaired. Prior to the 
2004 and 2006 federal general elections, HAVA funds were used 
to conduct a massive voter education program, including HAVA 
mailing to every voter an advertisement in three daily and 28 
weekly community newspapers. All of these changes, whether at 
the federal or state level, have placed increased 
responsibility and unfunded ongoing costs upon county 
governments and elected officials. These changes have also 
substantially complicated the Election Day process for polling 
places' officials without any increased annual funding for 
compensation or training. Recently proposed in Congress to 
change election laws requiring every voter to produce photo ID 
at the polling place and foolishly rush into added requirements 
for paper verification to an electronic voting system will 
result in even more responsibility, more unfunded annual 
operating costs, further complicating the voting day process 
for all poll officials and voters, and potentially result in 
the disenfranchisement and uncounted votes. The most immediate 
threat to ensuring that all qualified Philadelphians be able to 
vote and be assured that their vote will be accurately counted 
or counted at all in the next two federal elections is H.R. 
Bill 811. This legislation would require that Philadelphia set 
aside its proven, accurate, electronic voting system and lease 
a paper percentage count, optional scan system for the next 
four years. Philadelphia has not voted on paper for more than 
50 years. Paper systems allow too much devices in the way 
voters make their selection known, leading to voter intent 
issue and challenge. The Philadelphia City Commissioners join 
the ultimate number of state and local government organizations 
opposing H.R. 811 or any legislation that does not provide for 
a reasonable development, testing, and implementation period. 
Full funding authorization and appropriation and requirements 
that enable county election personnel to secure and officially 
ensure that every vote cast is accurately recorded, stored, and 
reported, and certified. We will be glad to provide the 
committee additional information on our concerns and issues 
with the H.R. 811 Bill and other pending federal legislation 
upon request. Thank you.
    [The statement of Ms. Tartaglione follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.010
    
    [GRAPHIC] [TIFF OMITTED] 40510A.011
    
    [GRAPHIC] [TIFF OMITTED] 40510A.012
    
    The Chairman. Thank you, Commissioner. Commissioner Howard.

                  STATEMENT OF EDGAR A. HOWARD

    Mr. Howard. Good morning. It is indeed a pleasure to be 
here, and we thank you for this opportunity.
    I just want to talk about voting in Philadelphia as 
mandated by Pennsylvania law. The qualifications of the voter 
are very brief. You have to be a citizen of the United States 
for one month before the election. You have to be a resident of 
Pennsylvania in your election district for 30 days before the 
next election. You will be 18 years of age on the day of the 
next election.
    Philadelphia County is made up of 66 wards, with three 
wards being split into what we call A and B wards, so we have a 
total of 69. There are 1,681 political subdivisions in the City 
of Philadelphia. Within these subdivisions, there are 
approximately 992,000 registered voters, and that breaks down 
into 750,000 of those folks are Democrats, 149,000 are 
Republicans, and about 4,000 are registered as Independents.
    Pennsylvania being a primary state, the only people who can 
vote in a primary are, you have to be registered in your party, 
so that kind of knocks out Independents, because if you can't--
like, we just came through the mayor's race. You can't be an 
Independent and vote for a Democratic candidate or a Republican 
candidate for mayor because of our system.
    You can register to vote by mail. You can register to vote 
in person. You can register to vote in conjunction with an 
application for a renewal of a driver's license. You may 
register to vote at any government agency. And effective 
January 1, 2006, all applicants to register to vote had to 
include a valid Pennsylvania driver's license number, a 
Pennsylvania non-driver's photo ID number, or the last four 
digits of your Social Security number. All first-time 
Pennsylvania voters voting in their election district for the 
first time had to provide identification, and there is the list 
about identification that I will submit to the record, so I 
don't have to go through that.
    There are many things that we need to do, and the one issue 
I think that disturbs the Commissioners right now is HAVA has 
mandated that all polling places be handicap accessible. In 
Philadelphia, we are an aging city. In a lot of neighborhoods 
we do not have buildings that are handicap accessible. So 
consequently, what this law has done, I am quite sure not 
intentionally done, we are now pitting the senior citizens 
against those with disabilities as we scurry around trying to 
find polling places that are handicap accessible. I can always 
point to my own ward and the divisions within my ward, where a 
lot of the public school buildings are not handicap accessible. 
We may have four or five divisions voting in those buildings, 
and it becomes an awesome task trying to relocate them. And I 
think that it is just horrible that we are left with the 
decision, who do we disenfranchise, those who have a disability 
or those senior citizens who must now walk additional blocks? 
The other strong point about Philadelphia and its elections is 
that people love to walk and vote. That is a tradition in 
Philadelphia. And because of HAVA, that is now in jeopardy. I 
just think that HAVA needs to take another look at that, 
because here we have the process of a person can vote by an 
absentee ballot. We have alternative ballots who are 
specifically for people who are 65 years or older and their 
polling place is not handicap accessible. So it is not like we 
do not try to reach out to help people.
    And the issues about incidents that happened on Election 
Day, those incidents are reported to the Commissioners' Office. 
They are investigated, they are reported to the Committee of 
Seventy. They are investigated, and if need be, they are turned 
over to the District Attorney's office if it warrants any type 
of prosecution. Those are the safeguards that we have. But we 
also have a problem when people go to other agencies and say 
things, and we know nothing about it, and we are left holding 
the bag because we know nothing about anybody's complaint. And 
those are some of our concerns. I just wanted to state what I 
feel and what I have seen in the Commissioners' Office in my 
brief term. And I thank you for this opportunity to address 
this distinguished body.
    The Chairman. Thank you, Commissioner. Bobby Lee.
    Mr. Lee. Yes. I don't have a statement. I basically came 
along in order to answer questions, but I would like to add 
something about the photo ID proposals.
    From my knowledge, I don't know of any single photo 
identification available from a government agency that would 
provide all of the information on that one ID that they are 
asking for in some of these bills.
    I mean, you don't need to be a citizen to get a driver's 
license, so you can't prove citizenship with a driver's 
license. Some of the information that may be on the driver's 
license is not on a passport. Voter identification cards do not 
include photos. So the problem basically is that there is no 
single, one piece of identification now that would provide 
that, unless the federal government is going to go forward and 
develop and implement a national ID card that every citizen 
must carry. So you get into a lot more chilling aspects once 
you go down that road.
    Pennsylvania's law went one step further than HAVA, went a 
little bit further than HAVA. HAVA requires that anyone who 
registers by mail for the first time in a county provide ID 
either when they are registering or when they vote. The 
legislature in Pennsylvania went one step further and decided 
that any individual who is voting for the first time in their 
election district, regardless of the source of the application, 
provide identification when they vote for the first time. 
Fortunately, through our voter education programs, and through 
some help with the media and other organizations, we have 
alerted our voters to bring ID with them when they go to vote. 
But that does not help those individuals who do not have the ID 
that is listed. Although Pennsylvania does have an expanded 
list of ID, and the fact that they can use a voter registration 
card that was issued and mailed by our office as that ID, even 
though it doesn't include a photo, helps. But the move to 
require a photo ID at the polls for every voter for every 
election is basically unnecessary. There is no foundation to 
the urban legends regarding imposters voting. We had a City 
Council primary here in Philadelphia one time that was decided 
by 99 votes, Democratic primary. One candidate sued. One 
candidate came in and examined the poll books that the voters 
signed on Election Day. They used volunteers that do that, and 
they were using rulers to measure signature specimens. Based on 
that unscientific method, they filed a complaint in court 
saying that there were 1,100 imposters out of 26,000 votes 
cast. Well, naturally, both sides then hired handwriting 
experts, and they came in and they really examined the records, 
and they looked at the poll books over a period of two or three 
elections to account for changes in signature specimens. And 
when both sides got done, even the petitioner's handwriting 
expert said, at most, out of the 26,000 signatures, there may 
have been four imposters. So not only have I not seen proof 
that imposters are voting, I have seen the other side of it, 
where people claimed they were, and I have seen proof that they 
didn't. And any time that we get challenges or questions 
regarding imposters voting, there was another case where 
another Council candidate initiated an investigation by the 
State Attorney General with the same claim. They were provided 
all the poll books. They were provided all our records, and the 
case was unfounded and never went anywhere.
    So I haven't seen any indication or need that every voter, 
every election, provide a photo ID with expanded information on 
it. I just think it is a barrier to voting, and it is going to 
disenfranchise those who ought to vote the most, those who need 
to have a voice in their government and support of their 
government.
    The Chairman. Thank you, Bobby. I just have a couple of 
quick questions to anyone, because you have a lot of 
Commissioners up there, and the Secretary could answer. Anyone 
who wants to answer. Same-day registration, what is your 
feeling about same-day registration? I guess this must be your 
baby, hey, Bobby?
    Mr. Lee. I don't like it. I don't like it. I don't like it, 
because the further down that track we go where we don't have 
people registering ahead of time and being able to produce a 
street list of eligible voters and files of eligible voters for 
both parties to review and look at before the election, then 
the further we go down to creating more urban legends of people 
showing up at the polls who are not qualified and just signing 
a piece of paper and voting. The other problem is dual voting, 
voting in more than one district, and voting in more than one 
county. Although I have seen only two instances where an 
individual has actually voted in two counties in the same 
election in 24 years. The voting districts in Philadelphia are 
so close together that you could walk literally five blocks and 
vote in two or three polling places. And there is an idea out 
there that with the statewide registries, we could put laptops 
in the polling places, and once somebody votes in one district, 
it will prevent them from voting in another district. I don't 
want to see our poll workers trying to determine eligibility 
using laptops. Denver tried that, and they had some issues and 
complaints and problems. I just think that the current 
situation, where you need to register or register 30 days 
before an election, allows the government agency that is 
responsible for conducting a safe and secure election is the 
most workable solution for a large, major urban area. It may 
work in some states. There is North Dakota, that has no 
registration. It may work for them. For Philadelphia, I believe 
same-day registration is probably not a road we want to go 
down. It doesn't seem that we have a problem with people 
registering in Philadelphia. I prepared some detailed answers 
to the questions that was provided to me.
    In 1992, in the five months before the Clinton and Bush I, 
general election, we received and processed 293,000 paper voter 
registration applications. That amount of work was equal to 
about one third of our file at the time. In 2004, in the same 
period before the Kerry-Bush II election, we received and 
processed 252,000. We have a very active political party 
structure here in the city. Committeemen, ward leaders, 
political organizations, in both parties, in certain areas are 
always out registering people to vote. We have 527s that come 
here all the time, three or four different ones every major 
election. Community organizations, union organizations, they 
are all very heavily involved in registering citizens, and I 
think the opportunity to register is already there, and I don't 
see a need for changing that process with same-day 
registration.
    The Chairman. Anybody else care to comment? Secretary? 
Madam?
    Ms. Lofgren. Well ----
    Mr. Weaver. I think ----
    The Chairman. Go ahead.
    Mr. Weaver. I am sorry.
    Ms. Lofgren. Go ahead.
    Mr. Weaver. I think he certainly outlined the issues and 
the problems that would occur with same-day registration. The 
issue of voter fraud, which has not been found to be a problem, 
really, across the United States, same-day registration, if not 
done properly, could, in fact, lead to voter fraud, as he had 
indicated.
    The Chairman. Madam Chairwoman.
    Ms. Lofgren. Well, if there is a highly contested election, 
and whether it be a committee person, legislator, Congress, 
that in their districts, somebody could come to every one of 
the polling places and be a first-time register, register, and 
vote. Now, if this would come to light and go to court, and 
they say, who did he vote for? This is a secret ballot. Maybe 
he would go to jail for that, but I may lose, you may lose, 
their ballots are secret.
    The Chairman. I wanted to get a lot of these questions 
asked. I have a couple more, and then I will let the gentlelady 
from California go, I know she has some questions. You need to 
understand that some of these questions I don't know the 
answers to, but this is a big country with a lot of states, and 
the State of California doesn't necessarily have the same 
regulations that we do, and I would want the lady to hear some 
of this so we can bring it back. We heard a lot of interest on 
same-day registration. And fortunately or unfortunately, all 
these issues will come in front of us and are in front of us 
right now, and that is what we need to get on the record, and I 
would like the lady from California to hear that. Yes?
    Mr. Howard. Mr. Chairman, the other thing I think that 
needs to be addressed is the issue that all across the United 
States voter registration is done differently. Every state, it 
is done differently. I mean, with all the technological 
advances and the machines that we use now, the data systems 
that are used, voter registration hasn't changed. It is still 
done with pen and pencil and paper.
    The Chairman. You are right. Again, just for the record and 
also to get more information for the gentlelady from 
California. The other day, the Election Subcommittee 
Chairwoman, Ms. Lofgren, held a hearing on poll workers. She is 
a tireless worker, and she gets all the testimony and hears 
from people that come in front of her committee, but she hasn't 
heard from you. What is the status of poll workers in 
Philadelphia? Do you have enough? What training are they given? 
Are they paid? How much are they paid? What solutions would you 
suggest to increase the number of qualified poll workers? Now, 
those are four or five questions that I know you know all the 
answers to. It isn't like these questions haven't been asked 
before. You all are experts up here, so I want you to just run 
through that. Not for me, but for the gentlelady from 
California so she can get some idea of how we operate and what 
happens in the City of Philadelphia. We do have our battles 
here. 99.9 percent are unfounded. We do have a great system 
that does work. In the end, it does work out for itself with a 
lot of checks and balances. Fortunately we do not have much 
voter fraud, that I believe anyway, has been substantiated or 
proven. There are always allegations, because there is always a 
winner and there is always a sore loser, as it should be. But 
if you could just expand on a few of those questions so that 
the gentlelady can get a feel for things.
    Mr. Lee. Yeah. There are 1,681 voting districts. The 
average voting district has five polling place officials. Three 
of those positions are elected positions. They are in the state 
Constitution, they are constitutional officers. The other two 
positions are appointed. Fortunately in Philadelphia, because 
we have a very strong party structure with committeemen, ward 
leaders on both sides of the aisle, and with the help of 
existing poll workers, we have not had difficulty in getting 
polling place officials. The ward leaders, the committee 
people, the party chair, even people that serve on the boards, 
when they find a vacancy, they provide the valuable service of 
finding an individual to fill that vacancy. So we actually 
tried a recruitment program in our office for polling place 
officials because of that valuable service provided by the 
structured authority out there, and it has been out there for 
years and still exists. They are kind of like the oil in the 
machine.
    The other thing is training. Training is difficult. There 
are 8,500 of them across the city. We conduct more than 315 
training classes for our polling place officials for each and 
every election. It consists of about a half hour classroom time 
on the operation of a polling place and then another half hour 
time on the operation of the voting machine. The polling place 
officials are paid $20 for attending that, if they serve on 
Election Day. That money is added to their check. In addition 
to that, we have between 250 to 300 bilingual interpreters that 
we assign to polling places to provide oral assistance, mostly 
in Spanish. We have just instituted in the last three elections 
a program where those officials are brought down and tested, 
certified to make sure they speak the language they claim and, 
if so, they are trained, and they are paid $30 for going 
through that testing and training program, provided they work 
on Election Day and show up. Naturally, when you are dealing 
with 8,500 people who are two-day-a-year employees, at 1,681 
locations, and we have a staff of maybe 80 permanent employees, 
Election Day is like sitting on 1,600 shuttle launches at one 
time. These people, they are your neighbors, they are your 
friends. They do the best they can. They try to learn, they try 
to do the best they can. They try to be fair, and they try to 
conduct an election that is accurate and reliable.
    And another issue, I guess, while I am on it, the fortunate 
thing is having so many voting districts. Our voting districts 
are between 600 and 800 voters. Philadelphia has always gone to 
the added expense of paying all these poll workers, but it is 
very good, because you don't often see the kinds of waiting 
times in Philadelphia that you read about in some of the other 
counties and jurisdictions across the country, where they may 
have 3,000 voters, 10 poll workers in a voting district. And 
that, in and of itself, runs into problems with locating 
sufficient accessible polling places.
    But could the training be improved? Sure. But the problem 
is, if you try to keep a poll worker out there for a three-hour 
training class, you are going to lose them. Some of these poll 
workers have been doing this for years, and they tell you that, 
and I have been doing this for 30 years. So we try to 
concentrate on those issues that may be new, issues where we 
have had notification that there were problems regarding 
specific items, and the fact that we get attendance between 
5,000 and 6,000 at our training classes each election has 
helped us to go forward. Naturally, it is not perfect. You are 
going to have garden-variety errors and mistakes occur on 
Election Day, and we try to do whatever we can to resolve those 
issues.
    The Chairman. Thank you, Bobby. If you wouldn't mind, can 
you give me some more information on same-day registration? I 
need to know more about it and what you've talked about today. 
I would like to have some information that I can use. This is 
an issue that is going to come up pretty soon. If you could get 
that to me.
    Mr. Lee. Yeah, I can get that to you.
    The Chairman. I appreciate that. Now it is my pleasure to 
recognize the gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman, and this is really a 
very helpful hearing. On the issue of same-day registration, we 
are going to have a hearing on that subject in--I can't recall 
when it is, but in the near future, and what I would like to be 
able to do is to give the testimony that we will receive to 
you, so that you can evaluate it. This is a very diverse 
country. And there are--in Minnesota, for example, the Members 
of Congress from Minnesota are very keen on this, and I don't 
know whether things are different in Minneapolis than 
Philadelphia, but I am a strong believer of sharing information 
and experiences among knowledgeable people and that we all 
learn when we do that. So I look forward to that opportunity.
    On the issue of absentee ballots, we have the legal 
ability--that doesn't mean that we should take that legal 
ability--to set certain requirements for the conduct of Federal 
elections, or elections for the House, to be more specific. 
However, if we were able to, or if the consensus was that we 
should do that, it obviously would probably result in the 
entire electoral system in a particular state changing to that. 
And so one of the questions is the right to have an absentee 
ballot. In California, that is not to say it is the right 
thing, but it seems to have worked well for us. You don't need 
to be sick or disabled. You can just ask for an absentee ballot 
and vote, and it saved the counties which have the 
responsibility for running these elections a lot of money 
because it is more efficient. It gets done beforehand. They 
have also moved to early voting, which is actually done at the 
Registrar of Voters in advance on weekends so that you--and the 
whole effect is to reduce the number of people showing up on 
Election Day, which reduces the cost and confusion on Election 
Day. I am wondering what your thoughts are on the Federal 
Government getting involved in that, versus states' just 
reaching that conclusion on their own?
    The Chairman. We all know that when Congress passes 
something and it is only for Federal elections, what winds up 
happening is, it is used for all elections. No state or 
jurisdiction is going to run dual voter registration or 
election systems or processes because that would only lead to 
confusion amongst voters from one type of election to another. 
They don't know the difference between a federal election and a 
local election. They just come out, and they want to vote. I 
know that Pennsylvania's voter registration laws are severely 
restrictive in that you need to either be outside of your 
municipality on Election Day while the polls are open or be 
disabled. With the passage of the ADA, the Secretary of the 
Commonwealth issued a directive in '92 allowing us to use 
alternative ballots for those individuals impaired by age, who 
are 65 or older, or with a disability. That process allows 
voters to get that ballot back by the close of polls, where the 
Pennsylvania normal rule requires it back by the Friday before 
the election, and that is restrictive. There could be an 
expansion of that time so that it comes back the night before 
the election. But I am not sure at this point how we feel about 
universal absentee voting. Oh, boy. I don't see an issue, with 
the exception of making it happen.
    Mr. Howard. I think there----
    The Chairman. That implementation.
    Mr. Howard. I think that the issue of no-excuse absentee 
voting, I think it is great. I mean, you know, it makes things 
a lot easier.
    Ms. Tartaglione. I am 100 percent for it.
    Mr. Weaver. The Pennsylvania Elections Reform Task Force 
convened in 2004, in late 2004 and 2005, and issued a report in 
2006. And I don't have that report with me, and I do know that 
absentee balloting was discussed, and I would be glad to 
forward that to the committee to see if Pennsylvania had taken 
a position on that. If there was a position taken, it has not 
yet been implemented, because voter registration is still 
conducted the same way. But I would be glad to forward that to 
the committee.
    Ms. Lofgren. I appreciate that, and I know, Mr. Chairman, 
you have another panel of distinguished witnesses, so I don't 
want to delay too much further. But again, this is very helpful 
and useful information, and I am looking forward to mutuality 
of sharing as we proceed further on these interesting issues, 
since the whole country is so diverse. I thank you for 
recognizing me.
    The Chairman. I thank the gentlelady. And again, thank all 
of you. You need to understand how important this is to us, 
because we do hear these. It comes in front of our committee, 
comes in front of the gentlelady's subcommittee, and the 
knowledge is important. We need to hear from you, and I hope 
that maybe you can come down when we do have a hearing to 
testify again in Washington. We wanted to make it a little more 
convenient, you know, to get some testimony on the record right 
now, but we are going to need it again when another hearing 
comes up to be able to get this on the record and share this 
information. Because it is state to state, and we need to bring 
some uniformity to the process as best as we can. Thank you, 
Mr. Secretary, Commissioner Howard, Chairperson Tartaglione, 
Bobby Lee. Thank you so much. I would like to call the next 
panel up, please.
    [Recess]
    The Chairman. Good morning. I really want to thank you for 
being here and testifying in front of us. As I said earlier, if 
you weren't here what would we do. We like to get testimony 
from everyone. Try to keep it to five minutes, but that is fine 
if you need to go over. After everyone testifies, we will have 
some questions for you. It is my pleasure now to have my 
Councillady, Carol Ann Campbell testify. She is also the 
Chairperson of the African-American Ward Leaders, someone who 
has been extremely involved in politics, and extremely involved 
in voting for way longer than I can remember, and has a wealth 
of knowledge of the system. So it is my pleasure to hear 
testimony from Councillady Carol Ann Campbell.

STATEMENTS OF CAROL ANN CAMPBELL, COUNCIL MEMBER, PHILADELPHIA, 
  PA; ROBERT SANTIAGO, DIRECTOR, COUNCIL OF SPANISH SPEAKING 
ORGANIZATIONS; ZACH STALBERG, PRESIDENT, COMMITTEE OF SEVENTY; 
 AND J. WHYATT MONDESIRE, PRESIDENT, NAACP PHILADELPHIA CHAPTER

                STATEMENT OF CAROL ANN CAMPBELL

    Ms. Campbell. Good morning. Thank you, Chairman Brady and 
distinguished members of the Committee on House Administration 
for joining us here in the City of Philadelphia.
    I am Councilwoman Carol Ann Campbell, and I would like to 
thank you for giving me the opportunity to address this very 
important subject. I am the Chairperson of the Handicap and 
Disabled Committee of Philadelphia City Council. I am committed 
to protecting the rights of the disabled, and as the 
Chairperson of this committee I have pioneered and proposed a 
change to the Charter, which is Philadelphia's governing 
instrument.
    The Charter change provides for the creation of the 
handicap and disabled advocate. The disabled community faces 
many impediments to voters' enfranchisement. Non-accessibility 
is the number-one challenge. The government must address it in 
a meaningful manner. Some persons with disability are unable to 
wait in line to vote, and it may be time for the government to 
consider online voting as a means of addressing some of these 
non-accessibility issues. You have come here and asked us to 
talk about a very important subject, impediments to voter 
enfranchisement. This is a matter in which I know a great deal 
about. For more than 15 years, I have served as the chairwoman 
of the African-American Democratic Ward Leaders of 
Philadelphia. Our organization represents more than 900,000 
African-American residents in the City of Philadelphia. Under 
my supervision as chairwoman, and the support of Congressman 
Bob Brady, more African-Americans have been elected to public 
office than at any time in the history of Philadelphia.
    Our role is traditional. We organize, mobilize, and inform 
voters in our communities about their choices on Election Day. 
This is no small task. It is no small task because, far too 
often, government hinders, not helps, the working men and women 
of our community in their effort to exercise their 
constitutional right to vote and participate in their 
democracy. I believe there are four principal impediments to 
voter enfranchisement. First, we face impediment to actually 
voting through an emerging pattern of voter ID requirements, 
prohibiting same-day voter registration, having Election Day be 
a work day, and prohibitions on felons' voting. We face 
machinations, technicalities, obscure and insidious regulations 
used to keep our votes from being counted after they have been 
cast. The saga of the 2000 presidential election, the drama of 
voting in Ohio in 2004, and the unresolved matter of the 13th 
Congressional district in Florida are all clear examples of 
this problem.
    Second, we face restrictive ballot access laws, 
intimidating petition requirements, inconsistent application of 
election law, confusing financial disclosure forms that reduce 
the number of candidates allowed on the ballot. Voters have 
fewer candidates to choose among for almost all public offices 
today than voters did 100 years ago. This problem is further 
complicated by the disproportionate influence of money in this 
process. The vast majority of voices people hear speaking on 
issues are the voices of money. We don't have free and fair 
elections if voters don't get to hear the voices of candidates 
without money. We need public forums where all candidates have 
equal opportunities to speak.
    Third, with over 100 beautiful languages spoken in this 
city, we face a language barrier for those who have not learned 
English as their native tongue. This also applies to men and 
women with different physical abilities. Committing more 
financial and personal resources to expanding the accessibility 
of polling places must be a high priority of government at 
every level.
    Fourth, to require such forms of identification as 
passports and driver's license, we place an undue financial 
burden upon many people, including the elderly and people 
living on fixed incomes if they had to purchase these items for 
voter identification, the documents that they would need. I 
have been involved in dozens and dozens of elections. My 
knowledge on this matter is a second only by my passion for 
them. I believe so strongly that if government knowingly 
disenfranchised one voter, we have failed as a democracy. Thank 
you for your presence here today and the important work that 
you continue to do. I am happy to answer any questions that you 
may have.
    [The statement of Ms. Campbell follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.013
    
    [GRAPHIC] [TIFF OMITTED] 40510A.014
    
    [GRAPHIC] [TIFF OMITTED] 40510A.015
    
    [GRAPHIC] [TIFF OMITTED] 40510A.016
    
    [GRAPHIC] [TIFF OMITTED] 40510A.017
    
    The Chairman. Thank you, Councillady. Next, we have Mr. 
Roberto Santiago, who is with CONCILIO, the Council of Spanish 
Speaking Organizations. Mr. Santiago.

                 STATEMENT OF ROBERTO SANTIAGO

    Mr. Santiago. Thank you, Mr. Chairman. Congresslady Lofgren 
from California, good morning, and thank you for the 
opportunity to hear my concerns regarding voter 
enfranchisement.
    My name is Roberto Santiago, and I am the Executive 
Director of the Council of Spanish Speaking Organizations. For 
the last 11 years I have had the enormous privilege to lead the 
oldest Latino Organization in the Commonwealth, CONCILIO. 
Founded by a group of Puerto Rican community activists in 1962, 
CONCILIO's mission has been to ensure that equitable social, 
educational, health, and cultural services are available and 
accessible to everyone.
    I have no special credentials. My only possible attribute 
comes with 30 years of experience in community service inside 
poor neighborhoods in Philadelphia, western New York, and 
Puerto Rico. And I am also a U.S. Navy veteran. I am a member 
of a family with four generations of proud military service in 
the United States Armed Forces. For the last two decades I have 
watched in dismay and disbelief the boldness in which devices 
are employed to impede citizens from exercising the right of 
suffrage. I should note that political disengagement is 
anathematic to Puerto Rican culture. Puerto Ricans participate 
in elections at far higher rates than voters in the United 
States. At 81.7 percent in 2004, Puerto Rico is considered one 
of the highest records of voter participation in the democratic 
world.
    Our systems are mirror images of each other. We have an 
independent judiciary, a two-chamber legislature, a strong 
executive branch, and we use the pluralist form of election 
system. Yet here in Philadelphia we struggle to stimulate 
meaningful participation in local elections.
    Are Latino voters not turning out, or are they just being 
turned off? Is it voter apathy, or is it voter discontent? I am 
not in a position to make such a conclusion. But let me share 
with you some of the most common concerns of people in the 
neighborhoods.
    On every Election Day, myself and a significant number of 
my staff travel the breadth of north Philadelphia polling 
places. We serve as poll watchers, independent observers, and 
translators. This is what we hear, and this is what we see. 
One, lack of language interpreter support. There is at times 
total absence or an inadequate number of interpreters in 
heavily-laden language minority polling sites. The, ``oh, I am 
sure there is one around,'' answer to voters' request for an 
interpreter is unacceptable, is offensive, and in violation of 
Court agreement. The selection process of interpreters is 
unclear, and it is perceived as politically influenced. We ask 
what skills are required to become a Spanish language 
interpreter? Are there any formal training requirements? Are 
there any credentialing requirements? These are all questions 
that are answered in a very nebulous form. In many cases, 
voters are unable to distinguish voting officials from party or 
candidate operatives. There are multiple complaints of poll 
workers' engaging in helping voters to fill out their ballots 
and instructing them how to vote. We ask that you require the 
display of official photo ID badges on the outer garment which 
clearly indicate name, titles, and party affiliations where 
applicable, for every poll official. Candidates and party 
operatives improperly hinder the free movement of voters' 
entering and exiting polling places. Aggressive canvassing 
practices outside polling area create an unpleasant and 
sometimes hostile, vulgar, and violent atmosphere for voters. 
Voters are least likely to vote when they fear obnoxious and 
aggressive solicitation. The gauntlet-like experience 
discourage participation in the electoral process. It is seen 
as a political strategy designed to discourage voter 
participation in neighborhoods likely to vote for the 
contender. It is especially intimidating to first-time voters, 
women, and the elderly.
    As of yesterday I tried narrowing down what the distance 
between the door and solicitation was. I called Ms. 
Tartaglione's office. I was told by an individual in that 
office that, ``to my knowledge, there are no distance 
requirements.'' I called the State to find out they are 10 
feet. In any case, we ask that buffers be expanded, and where 
enforcement of this expansion is not possible, then do without 
it altogether. We don't really need this kind of harassment for 
voters. I am going to cut my statement because I am running out 
of time. There is more to it, but I want to conclude, and I 
wanted to ask this committee to play a role in increasing voter 
participation, to encourage, facilitate, reward, and implement 
Election Day registration, vote-by- mail, early vote, and 
certainly bilingual ballots. This is especially valuable to 
seniors, language minorities with limited English skills, the 
physically challenged, the marginally literate, and to anyone 
who needs and wants additional time to make a thoughtful 
choice.
    Mr. Chairman, I understand that institutional change is 
slow and rarely cheap, but in my opinion, when the citizens' 
rights to vote collide with the interest of a candidate or 
impinges upon the convenience of an electoral system, it is the 
interest of the citizen voter which must prevail. We cannot 
fear the implications and consequences of a free and just 
electoral process. A representative democracy becomes a 
worthless, philosophical abstract when the free exercise of the 
vote is denied or is unachievable by every single man and 
woman. For the victim, democracy becomes but a painful farce, a 
pretense, a rhetorical concept. In short, an illusion of 
inclusion.
    I pray unto you, Mr. Chairman, I pray unto you, members of 
this committee, and I pray unto every honorable man and woman 
of this great country, let our people vote. Thank you, Mr. 
Chairman, for your time. I ask that my testimony be entered in 
full into the record. Congressman Brady, I now stand before 
this committee to answer your questions.
    The Chairman. Thank you, Mr. Santiago. Thank you so much. 
Next we have Zach Stalberg, who is the CEO and president of the 
Committee of Seventy. For Californians, the Committee of 
Seventy is about 70 or so people that have formed to watch over 
elected officials and politicians, and they have been watching 
us for many years and have become intermingled with us now in 
causes such as elections so that we can work together on these 
issues. So, Mr. Stalberg.

                   STATEMENT OF ZACH STALBERG

    Mr. Stalberg. Thank you very much. I am Zach Stalberg, 
President of the Committee of Seventy, a non-profit and non-
partisan organization.
    Seventy has long conducted an election oversight program 
and voter protection program that is probably the oldest and 
largest such program in the country.
    Simply put, and I also want to respect the time of everyone 
here and this committee, the Committee of Seventy favors 
increased voter participation and is concerned about any 
requirements that discourage voting.
    Many people view the expansion of voting rights as a 
natural and inevitable progression. There are others who 
continue to seek restrictions. These arguments are typically 
advanced in the name of combating election fraud and ensuring 
honest elections. Efforts to restrict voter participation, 
however, can be the product of partisan politics or a desire to 
maintain the racial or economic status quo. Legitimate fears 
about election misconduct are not misplaced. Those well versed 
in political history are familiar with many cases of election 
fraud stretching back to our nation's founding. Election-
related violations, sometimes involving criminal conduct, have 
been committed by party bosses, election officials, political 
campaigns from both major parties, from our most rural counties 
to our largest cities. However, Seventy believes that these 
incidents did not justify making it much harder for individuals 
to vote by insisting upon far more stringent identification 
requirements. The operative word here is stringent. Such 
requirements may be an inconvenience to all voters, and they 
disproportionately impact minorities, seniors, and people with 
disabilities.
    Federal and Pennsylvania Law require two forms of 
identification. One, a comparison of each voter's Election Day 
signature with a scanned version of the signature from their 
registration form. And two, specific additional proofs of 
identity for voters voting for the first time or voting for the 
first time in a division.
    Even if free photo identification were provided, the burden 
of supplying certain supporting documents and the time and 
trouble to obtain the photo could be difficult for many US 
citizens. These are very real barriers to voter participation, 
especially among disadvantaged Americans.
    Additional voter identification requirements should be very 
carefully considered unless the Help America Vote Act 
requirements are proven to be inadequate in order to prevent 
fraud by individual voters. The benefits of individual 
requirements should also be proven to outweigh the potentially 
significant costs. In addition to these views, I would like to 
offer some additional recommendations for increasing national 
voter participation and removing existing barriers. While these 
recommendations arguably concern matters of state 
administration, our very mobile society makes them relevant to 
all jurisdiction. One, reduce voter registration deadlines. 
Pennsylvania has a voter registration deadline of 30 days prior 
to an election. Many voters seek to register or to update their 
voting addresses after this deadline, and especially as the 
election becomes more interesting to them. With advances in 
technology, we believe this deadline can be shortened. Two, 
national no-fault absentee balloting. In Pennsylvania, a voter 
must provide justification for voting absence. While voting in 
person is optimal, a significant benefit of mail-in voting, 
both to individuals and the community, is reducing lines at the 
polls. No-fault absentee ballots can dramatically reduce the 
time commitment required of voters, especially during high-
interest and long-ballot elections. Three, uniformity of 
provisional ballot rules. In Pennsylvania, a provisional ballot 
cast in an incorrect precinct is counted for all races which 
correspond to the voter's correct precinct. Under this system, 
a voter may lose one or two legislative votes, but their top-
of-the-ticket and at-large choices cast by a professional 
ballot are counted. In some other states, provisional ballots 
must be cast in the correct precinct in order to be counted. If 
you attempt to vote in the wrong place, you are out of luck. 
This more restrictive rule disenfranchises individuals. 
Applying the more expansive provisional ballot rule across the 
states would avoid this problem.
    Four, federal funding of elections. The Help America Vote 
Act provided significant funding for voting equipment, thereby 
removing at least some of the disparity in voting access 
between affluent and less affluent counties. While we believe 
local administration of elections best serves the interest of 
the voters, local funding for elections only perpetuates this 
disparity, particularly as voting equipment ages and more state 
and federal mandates are passed.
    As long as election operations must compete with important 
services such as police protection and schools for a piece of 
the local budget, there is a real risk of neglect and 
significant breakdowns on Election Day.
    Once again, thanks for the opportunity to testify.
    [The statement of Mr. Stalberg follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.018
    
    [GRAPHIC] [TIFF OMITTED] 40510A.019
    
    [GRAPHIC] [TIFF OMITTED] 40510A.020
    
    [GRAPHIC] [TIFF OMITTED] 40510A.021
    
    [GRAPHIC] [TIFF OMITTED] 40510A.022
    
    The Chairman. Thank you, Mr. Stalberg. Next is Jerry 
Mondesire. Jerry Whyatt Mondesire is the President of the NAACP 
and a tireless fighter for people's rights of all creeds, 
races, and religions, and we do appreciate your testimony. You 
are the clean-up hitter. We needed you Wednesday and Thursday, 
but you are here now.
    Mr. Mondesire. I would like to hit as well as Ryan Howard. 
I thought he wouldn't be here.
    The Chairman. I would like to hear from you, Mr. Mondesire. 
Thank you.

                STATEMENT OF J. WHYATT MONDESIRE

    Mr. Mondesire. Thank you, Mr. Chairman, and thank you, Ms. 
Lofgren, from California. And my days of working for Bill 
Grabb, brought plenty of copies, so I will leave them with you. 
I just want to give you some introduction and stress a few 
things in conversation that are real important to us.
    Thank you again for inviting us to testify along with my 
colleagues and the other members of the City government who 
have testified.
    It is only fitting and proper that we gather here in the 
Philadelphia City Council chambers to discuss impediments to 
voter enfranchisement. Within these walls many great debates 
about our city have raised, some of grand consequence, school 
funding, neighborhood transformation, how to address the rise 
in gun violence, and some of small consequence as well.
    But, however, no matter of the content of these debates, 
nor really their outcome, what is most important is that they 
were made by representatives of the people, duly elected and 
sworn to serve the people. It is important that the people have 
a voice in this process and that their votes count and are 
counted. At the NAACP, this issue is not new to us.
    Specifically, we would recommend that this committee 
consider very strongly support of S 453, a bill introduced by 
Senators Obama, Schumer, and others to address the prevention 
of deceptive practices and voting intimidation in federal 
elections. Two, ask tough questions about the purging of voter 
lists in an often random and arbitrary way by election 
officials across the country. Three, give serious consideration 
to the idea of same-day registration. And last, but certainly 
not least, file an amicus brief with the Supreme Court in 
opposition to voter ID's as they consider the Crawford v. 
Marion County Election Board and the Indiana Democratic Party 
v. Rokita. Requiring voter identification at the polls places 
an unfair and onerous burden on prospective voters that will 
ultimately discourage people from participating in the 
democratic process.
    There are fundamental problems with the concept of voter 
ID's. First, it is nearly impossible to tie a voter 
identification to a universal piece of identification. If you 
accept a driver's license, what about those who don't drive, 
the elderly, the poor, and those who take public 
transportation? If you have lost your license, you have lost 
your right to vote. That is insane. The American Association of 
People with Disabilities reports that nearly three million 
disabled people do not have any form of government 
identification. Some would like us to consider a state-issued 
voter identification. The insanity here continues. What about 
the cost? Charging what is effectively a poll tax that would 
provide a further hardship to the poor. How do we issue this 
identification? It would be another burden on the voter and 
further impede their right to vote.
    I will also ask that this committee consider taking up the 
very thorny issue of restoring the right of ex-felons to vote. 
We are the only NAACP branch in the country to win that right 
to vote in our state, the Commonwealth of Pennsylvania. It was 
1999. The case was called Mixon v. Commonwealth. It was written 
by an ex-felon, and the NAACP signed on as an amicus brief in 
that case, and it was decided by one vote. Just one 
Commonwealth Judge in the Commonwealth of Pennsylvania gave the 
right of ex-felons their right to vote again.
    You should also be aware that in this state, and I presume 
it is also the same for states across the country, when you 
come out of prison, you have no ID. That is a big issue for ex-
prisoners. We work with a lot of ex-felons in some of the rehab 
housing programs that we do, and when we pay them, we find out 
that they can't cash the checks because they don't have ID. 
They didn't have licenses while they were confined, driver's 
licenses, so clearly they don't have driver's licenses to cash 
their checks. So we don't believe in voter ID's. We would urge 
you to consider taking up the felon disenfranchisement issue, 
especially as it pertains obviously only to federal voting.
    There are many serious issues, and we are glad that you, 
Chairman Brady, and you, Ms. Lofgren, have thought enough about 
these to come to Philadelphia, and you can always count on us 
at the NAACP, both here locally as well as the state and across 
the country, to work with you to make sure that our people of 
all colors, of all backgrounds, new citizens as well as old 
citizens, have a chance to participate in the greatest 
democracy in the world. Thank you very much.
    [The statement of Mr. Mondesire follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.023
    
    [GRAPHIC] [TIFF OMITTED] 40510A.024
    
    [GRAPHIC] [TIFF OMITTED] 40510A.025
    
    [GRAPHIC] [TIFF OMITTED] 40510A.026
    
    The Chairman. Thank you. Thank you, Mr. Mondesire. Thank 
you for asking for us to support the Senate Deception Practice 
Bill. In June the House passed HR 1281, the Deceptive Practice 
and Voter Intimidation Act of 2007. As an original co-sponsor 
of this legislation, I support all efforts to prevent voter 
suppression. We will fight to get this thing passed.
    Mr. Mondesire. Thanks.
    The Chairman. I will throw some questions out to anyone who 
wishes to answer, again, to get you on the record. It would be 
impossible to have eight distinguished witnesses come down to 
Washington, to have all of you testify. As the gentlelady from 
California did, we get one, maybe two that can come from this 
area in support and to get your thoughts on the record that we 
could take with us. One of the questions I asked the other 
panel I will ask you, too. And Mr. Santiago, I have a quick 
comment for you. It must be hard for people coming to this 
great country from Puerto Rico where you have elections--I 
think you have 90-some percent participation, and I even 
understand that you paint your houses from time to time in 
favor of your candidate--and to come here and see the apathy 
that sometimes happens, that we may cause, that causes the low 
turnout in the country, not only in the city, but in the 
country. So I appreciate your prayers, although I would like to 
see them for our troops and for some children that may need 
them, but I will take them anyway that we can do the right and 
proper thing. But it must be hard for you when people come over 
and we must be doing something wrong here because that practice 
of them wanting to vote doesn't continue let alone stay at that 
90-some percent level, or paint their houses. I was extremely 
impressed by that. My question would be to anyone, again, on 
the same-day registration. As Chairman of the committee, I have 
gotten a few requests to introduce a bill on that regard. I 
want to have some information, and I want to have some 
ammunition to bring back to have knowledge of what we should 
possibly recommend for same-day registration. Does anybody have 
some thoughts on that?
    Mr. Stalberg. As I stated, we believe that the registration 
period can be shortened as technology improves. I respect the 
comments earlier from Bob Lee about the down-sides of same-day 
registration itself. But there are 30 days between the current 
deadline and same-day registration. And I think it does 
encourage participation if we--over time we can shrink that 
period.
    Mr. Santiago. I take a perhaps more radical approach. My 
sense is that the right of the individual to vote has to be 
supreme over the inconvenience of a political system. Let them 
figure the way. Let them figure the way how to make it happen. 
But for those that can and want to vote, we should remove any 
obstacle that prohibits them from doing so.
    The Chairman. My only problem, and I shouldn't call it a 
problem, my concern is that we might make it easier for 
somebody to violate a law and take advantage of a system that 
we have in place. We don't certainly want to do that, but I 
understand and appreciate what you are saying. Yes?
    Mr. Mondesire. Well, the technology that exists today, as 
you know, Mr. Chairman, would mitigate against that. And you 
don't have to remove the 30-day waiting period all at once. You 
could do it in stages, and you could watch and see how the 
thing progressed, just like we have changed since the bad, old 
days of hanging chads and missing punch hole things. And you 
remember what we did here in Philadelphia? We brought the 
modern voting machines over a period of time. So I agree with 
Mr. Santiago and Mr. Stalberg that we need to shorten that 
window. You know, maybe in the next couple of years in 
Pennsylvania it could be 20 days and then 10 days and then 
hopefully 24 hours. I have to excuse myself. I have another 
appointment, but I didn't want to miss your important hearing. 
So if there are other questions, your wonderful staff can 
contact me, and I will be glad to cooperate.
    The Chairman. Thank you, and thank you for your 
participation. Councillady.
    Ms. Campbell. Thank you.
    The Chairman. You have an interest, and you are a champion 
for the people that need help, for people that have a problem 
getting to a poll, with the handicap accessibilities. What 
could we do? What could happen in the City of Philadelphia when 
there is a problem with handicap accessibility? I, myself, 
being involved in the political system, have a division where I 
vote, and in the division where I live and where I vote and 
where I used to live and voted, there were no businesses. They 
were all residential, and none of them were handicap 
accessible. Because of that, there may be a Law that says we 
can't vote in that division, we might have to vote two or three 
divisions over. And as we heard from Commissioner Howard, 
people like to walk a vote, not drive a vote. Isn't it a bigger 
handicap for someone to get into a special van and go two or 
three more miles to vote than it would be if we could figure 
out a way that we can have voting where some places are more 
handicap accessible? I know that you are a tireless advocate 
for that, and I'd like to have your thoughts.
    Ms. Campbell. Well, being handicapped and having become 
handicapped, you become more sensitive to the needs of people 
that are handicapped. And online would be a way, if a person 
was really certified as being disabled. I think a lot of the 
responsibility should fall on the municipality because, 
although a lot of places are not handicap accessible, you can 
get a very inexpensive, temporary ramp that could be put over 
at least three steps or a big incline for a wheelchair to go in 
or for a person on a walker to be able to use. I think that the 
main problem is that unless a person has lived with a 
handicapped person, is friendly with a handicapped person, or 
has a member of their family, they are not as sensitive to the 
needs of a handicapped person as they should be. You will have 
people tell you that a place is handicap accessible. I have had 
this happen to me, and when we got there, there was one, small 
step, that if you can't walk, you can't take it. And I think 
that when it comes to voting, that is a Constitutional right 
that everyone should be able to exercise. And I think that no 
amount of expense is too much to make that possible. As I said, 
I just don't think government has gotten to the point where 
they are really sensitive. We are here in City Hall. There is 
only one entrance way that you can come into City Hall in a 
wheelchair, and that is to circle the entire building and come 
through the courtyard and come in where there is no steps in 
that one door. Now, you would think that with a city of this 
magnitude that that wouldn't be the case with City Hall. And 
so, if that is the way it is for City Hall, imagine what it 
must be for voting. But they are going to have to eventually 
look at an alternative way for handicapped people to be able to 
vote, whether it be by a special ballot, whether it is one 
designated place they have to go, but then you have to realize, 
a lot of handicapped people don't have transportation. Everyone 
doesn't have the luxury of having a van that has a wheelchair 
lift that you can go up and come out and then go in. But as I 
said, I don't think the sensitivity level is where it really 
should be. Maybe--I can only speak about this municipality. I 
can't speak about across the country. But I know that it is not 
there yet. And as I said, just look at City Hall. As many 
people as you have in wheelchairs, and there is only way, and 
to tell you the truth, when I started working here, I had to 
send my people out to really go over the City Hall completely 
to find out the best way that I would be able to enter, because 
we were worried about it, you know. And as I said, there just 
has to be more sensitivity about people who are disabled 
because they--in fact, there is a lot of disabled people that 
would love to vote, and you find that on Election Day, when you 
are placing calls, they would love to come, but they can't 
enter the polls because it is not handicap accessible. And 
then, as you know, in this neighborhood, with its neighborhoods 
and the city of neighbors that we have here, a lot of people's 
residences are used for voting. It is not so bad when it is a 
public place, or it is a store that someone has given us. So 
there has to be an alternative way for these people to be able 
to cast their vote.
    The Chairman. Thank you. Thank you, Councillady. Also we 
are joined by the distinguished Majority Leader of City 
Council, Councillady Jannie Blackwell. Thank you. Gentlelady 
from California, are there any questions?
    Ms. Lofgren. Just a few. Thank you very much for this 
testimony, and I was wondering, Councilwoman, what your 
thoughts would be on--it is easy in California actually. I 
represent San Jose. In 1960, the population of the City of San 
Jose was under 50,000. It is over a million today. So that 
growth has all been new, and so all the buildings are new, and 
it is just easy to comply. With an older city such as this, it 
is a completely different set of challenges. And as you were 
talking, I was thinking about my mother-in-law is in a 
wheelchair. Now, we have Thanksgiving at our house every year. 
40 people come, and we built a ramp so that once a year we can 
have my--my mother-in-law can very easily--we wish it was more 
often, but it is very difficult for her to travel. It doesn't 
meet ADA requirements, that ramp, but actually it works. And 
the question, I guess, is, do you think there is a way to relax 
the ADA requirements if it is for a one-day voter purpose and 
it is a safe approach to--is that an approach that might make 
sense, do you think?
    Ms. Campbell. I think it would. I think by any means 
necessary. I think the greatest Constitutional right you have 
is the right to vote. And I don't think anyone should be denied 
that opportunity.
    Ms. Lofgren. Your testimony is very powerful on that point.
    Ms. Campbell. Okay. I mean, that is what I just really 
feel. I feel, as I said, I find there is a lack of sensitivity 
in a lot of places, as far as people. I never really realized. 
I wasn't cognizant of it before I became disabled, but once I 
became disabled, you pay particular attention to what really 
goes on in the dealing with people that are handicapped. I am 
blessed because I have a lot of people that are around me, a 
lot of people that help me, and I have a tremendous support 
system. But everyone doesn't have the luxury of that.
    Ms. Lofgren. That is right. I was interested in the 
comments on people who have paid their debt to society, but 
they are permanently barred from ever voting again. And this 
is, again, one of the things that we hope to look at in the 
hearing later this year, on whether felons who have served 
their sentence or finished with their parole, they have paid 
their debt to society, whether there shouldn't be some national 
rule where those individuals who are now expected to come back 
and integrate into society shouldn't fully integrate and also 
become voters. And it seems to me that there is a civil rights 
component to this as well. When you take a look at who is in 
the nation's prisons and jails because of a variety of reasons, 
including disparity of sentencing, you end up with minorities 
who are being disenfranchised, to the point where it is a 
substantial number of African-American men in particular, are 
unable ever to participate in the electoral system. And that 
strikes me as something very troubling. Do you?
    Ms. Campbell. It does need to be addressed, because they do 
have to pay taxes. They don't say, because you are a felon you 
don't have to pay taxes. You have to pay taxes, and they have 
to pay taxes. Then they have the right to exercise their 
Constitutional right to be able to vote. It seems to me that 
once you have paid your debt to society, that should suffice. 
That should be sufficient. And I think it is going to the 
extreme to deny people, because people do change. They do 
change. A lot of times people have to go through the experience 
of being turned around completely from something terrible that 
they have done, and I know I don't look at things as I did when 
I was 20 years old. In fact, sometimes I think I had more sense 
when I was 20 years old than I do right now, to be perfectly 
honest, you know. I think as I get older sometimes I get wilder 
and crazier. But really I do think that they have a right. I 
think to deny them that right is morally wrong. And I think 
that once people have paid their debts, you know, judge ye not 
unless you be judged, you haven't walked in their shoes. So you 
don't know what brought them to that point in their life that 
caused them to do what they did. And I don't think any of us 
have led such a pristine life that we have the right to judge 
them.
    Mr. Stalberg. The Committee of Seventy agrees that there 
should be a fair national standard that re-enfranchises felons. 
As Mr. Mondesire pointed out, that is not a problem in 
Pennsylvania, although in practicality getting the proper 
identification is. But it is a problem elsewhere in the 
country.
    Ms. Lofgren. I want to ask just about two other issues. The 
Chairman mentioned the bill that the House has passed about 
voter intimidation, and I think it is a very important measure, 
and I hope that the Senate will either adopt Senator Obama's 
bill or our bill or something so that we can make that Law 
before the next election. But one of the things that we did not 
include and that I hope that we can--we are planning to take a 
look at, and I don't know if it has been a problem here in 
Pennsylvania or not. But it is the issue of harassing robo-
calls. What we found in California and also in some other 
western states, one candidate's campaign would place these 
robo-calls repeatedly, and in the middle of the night. So that, 
you know, you are a voter asleep, and it is 2:00 in the 
morning, and it is 3:00 in the morning, and it is 4:00 in the 
morning. And you are getting repeated phone calls, and you 
think it is the candidate. But it is actually the opponent who 
is getting those calls placed, to the point where there was 
such harassment that voters--I mean candidates who were 
victimized by this had to stop their voter--their get-out-the-
vote efforts. People--you can imagine when you are woken up 
repeatedly in the middle of the night, it does not make you 
feel friendly towards the person who you think is instigating 
those calls. Was that an issue here in Pennsylvania that you 
know of?
    Ms. Campbell. Not to my knowledge. We have received robo-
calls but normally they are during----
    Ms. Lofgren. But not in the middle of the night.
    Ms. Campbell. No, not the middle of the night.
    Ms. Lofgren. All right.
    The Chairman. We may, now.
    Ms. Lofgren. Sorry. Now I have lost my train of thought. I 
guess the final question that I have really goes to something 
called vote caging. And we have a hearing in the Judiciary 
Committee, that I also serve on, when we looked at the US 
Attorneys and the politicization of the Justice Department, and 
this was one of the issues that came up. And it sounded 
somewhat innocuous when the Justice Department lawyers talked 
about that they had done this in their spare time, where they 
had sent mailings to make sure that, you know, we didn't have 
people no longer eligible to vote. And then I saw actually the 
public television did a story, and here is what happened. They 
picked out neighborhoods that were low income, African-American 
neighborhoods, Latino neighborhoods, neighborhoods where 
sometimes the mail didn't get delivered as reliably as in some 
other neighborhoods, or neighborhoods where there were a large 
number of young people who are away at college, sent in 
mailings. And then, when they were not returned, reported those 
voters as no longer there, so that we ended up with 20 or 30 
percent of the African-American and Latino voters 
disenfranchised in that community. I am wondering whether 
anything like that has happened here in Pennsylvania and if we 
ought not to look about prohibiting that when it has a 
disparate, adverse impact on protected classes of Americans. 
And there is a reason why, you know, we are still alert to 
discrimination against African-Americans and Latinos. It is 
because there is discrimination, and we need to be especially 
alert in those circumstances.
    Mr. Stalberg. If I may, I would like to let Christopher 
Sheridan, who is the head of the voting rights and election 
reform program for the Committee of Seventy just comment 
briefly on that, because it is an issue.
    Mr. Sheridan. In a number of occasions in the past, I think 
most recently in 2003, we have seen instances of using mail to 
build challenge lists on behalf of one major political party, 
and I think--so it has been an issue that we have seen. I think 
generally when we have gotten to the polls, I don't know that 
it has always been followed through on. Usually the mail comes 
back, and there is a new story, this many people aren't there. 
But we haven't seen a whole lot of challenges in the field 
based on this. But it is something--it actually goes back to 
Tammany Hall in the last century, caging is a very old 
practice. And it is something that, you know, it is 
discriminatory, and it is something that you should take a 
serious look at prohibiting, along with false literature, which 
may be covered in, I believe it was 811 or Senator Obama's 
bill. We do see----
    Ms. Lofgren. And the bill passed by the House, the false 
literature is covered by that.
    Mr. Sheridan. Well, yeah, we do see false literature on 
Election Day. We frequently have to come to Election Court to 
get an order against false and misleading literature. So I do 
think it is an issue, especially in highly competitive, you 
know, general elections.
    Ms. Campbell. From my experience as the Secretary of 
Democratic Party in addition to being Chair of the African-
American Ward Leaders, you have a lot of problems on Election 
Day in the minority wards. A lot of times people are removed 
from the registration rolls, but no one can give you an answer 
as to why. I find that sometimes there are many things that 
happen in the minority wards that do not happen in other wards, 
such as machines being broke seven o'clock in the morning, when 
we have new machines. Machines being jammed. And sometimes 
there is a pattern in certain wards where this does happen. 
Now, I don't know whether it is the fault of the machine or the 
lack of maybe the proper care. I don't know. But I just find it 
very strange that this does happen in the minority wards.
    Ms. Lofgren. At this point I have exhausted my questions, 
but I will say I understand why, when Chairman Brady comes to 
Washington, he is always bragging about where he is from, and 
the people he represents, and how smart they are, and how savvy 
they are. And I can see that from the witnesses today. And it 
has really been an honor, Bob, to be down here with you, and I 
commend you again for holding this hearing.
    The Chairman. Thank you. It is also my honor to show you 
off a little bit and let my friends that I have known for many, 
many, many, many years see who I serve with and help me look 
good, too, in my committee and in Congress. We were joined by 
the Majority Leader, Councillady Jannie Blackwell. Would you 
like to comment on anything? I know you have the box in your 
office, and you heard some of the testimony. Is there anything 
that you would like to say?
    Ms. Blackwell. Certainly, absolutely. Certainly I want to 
thank you both for being here to deal with this important 
issue. Our Congressman knows all the issues we face as ward 
leaders and elected officials in our districts. And I remember 
the year, so, talking about the handicapped, I remember before 
we had the law where we had to make all our sidewalks 
handicapped, a wheelchair could get down one side and not up on 
the other. So we have come a long way, certainly, in spite of 
our issues. But with regard to voting, it is just important 
that people be given the opportunity to submit their ballots 
when they can't vote. I remember before my mother passed how 
difficult it was. And the last time I had forgotten to file my 
absentee ballot, and I took her, and of course they let me in, 
and she was just overwhelmed being inside a machine and having 
names and numbers so high, and it was just too much for her. 
And so it is just important that in order to make sure that 
people have their rights, they are allowed to file ballots. And 
I do believe, I thought that the new machines would change the 
problems we had with voting, but we still have problems. I 
suppose it amounts to intent. It amounts to will. People want 
to do it right. It happens right, but when we have 
controversial elections, we find that somehow, somewhere, we 
still have voter machine errors in certain areas. That is an 
issue. How it happens, only God knows. We don't know. But we 
support the effort. We thank you for having this hearing. We 
thank our beloved Congressman Bob Brady, and certainly we 
support whatever we can do to make sure that people in America 
have a right to this tree of life, and that includes voting and 
the ability for all people to vote. Thank you. Thank you, 
Congressman.
    The Chairman. Thank you, Councillady. I would also like to 
ask unanimous consent to hold the committee record open for 
five days for inclusion of additional materials and written 
answers to questions.
    The Chairman. Thank you. I thank the panel again. Thank you 
for your participation. Believe me, you don't know how 
important this is for us to have this on the record so that we 
can take the information back and insert it any time we have a 
hearing. We can insert your testimony, and we can make your 
feelings known without you actually having to be there, and it 
gives us good ammunition. So I thank all of you for your time 
and your participation. I especially thank the two Councilwomen 
for allowing us to infringe upon your turf for a moment or two 
and also the Council president for allowing us to use this 
facility. Again, a wholehearted thank-you to my colleague and 
friend from California, to Congresswoman Zoe Lofgren, for 
coming out here and spending time. She could have been home the 
rest of today like I have, but she spent another day here with 
us, and we are going to show her a little bit of the City of 
Philadelphia. I thank all of you, and this hearing is now 
adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 40510A.027
    
    [GRAPHIC] [TIFF OMITTED] 40510A.028
    
    [GRAPHIC] [TIFF OMITTED] 40510A.029
    
    [GRAPHIC] [TIFF OMITTED] 40510A.030
    
    [GRAPHIC] [TIFF OMITTED] 40510A.031
    
    [GRAPHIC] [TIFF OMITTED] 40510A.032
    
    [GRAPHIC] [TIFF OMITTED] 40510A.033
    
    [GRAPHIC] [TIFF OMITTED] 40510A.034
    
    [GRAPHIC] [TIFF OMITTED] 40510A.035
    
    [GRAPHIC] [TIFF OMITTED] 40510A.036
    
    [GRAPHIC] [TIFF OMITTED] 40510A.037
    
    [GRAPHIC] [TIFF OMITTED] 40510A.038
    
    [GRAPHIC] [TIFF OMITTED] 40510A.039
    
    [GRAPHIC] [TIFF OMITTED] 40510A.040
    
    [GRAPHIC] [TIFF OMITTED] 40510A.041
    
    [GRAPHIC] [TIFF OMITTED] 40510A.042
    
    [GRAPHIC] [TIFF OMITTED] 40510A.043
    
    [GRAPHIC] [TIFF OMITTED] 40510A.044
    
    [GRAPHIC] [TIFF OMITTED] 40510A.045
    
    [GRAPHIC] [TIFF OMITTED] 40510A.046
    
    [GRAPHIC] [TIFF OMITTED] 40510A.047
    
    [GRAPHIC] [TIFF OMITTED] 40510A.048
    
    [GRAPHIC] [TIFF OMITTED] 40510A.049
    
    [GRAPHIC] [TIFF OMITTED] 40510A.050
    
    [GRAPHIC] [TIFF OMITTED] 40510A.051
    
    [GRAPHIC] [TIFF OMITTED] 40510A.052
    
    [GRAPHIC] [TIFF OMITTED] 40510A.053
    
    [GRAPHIC] [TIFF OMITTED] 40510A.054
    
    [GRAPHIC] [TIFF OMITTED] 40510A.055
    
    [GRAPHIC] [TIFF OMITTED] 40510A.056
    
    [GRAPHIC] [TIFF OMITTED] 40510A.057
    
    [GRAPHIC] [TIFF OMITTED] 40510A.058
    
    [GRAPHIC] [TIFF OMITTED] 40510A.059
    
    [GRAPHIC] [TIFF OMITTED] 40510A.060
    
    [GRAPHIC] [TIFF OMITTED] 40510A.061
    
    [GRAPHIC] [TIFF OMITTED] 40510A.062
    
    [GRAPHIC] [TIFF OMITTED] 40510A.063
    
    [GRAPHIC] [TIFF OMITTED] 40510A.064
    
    [GRAPHIC] [TIFF OMITTED] 40510A.065
    
    [GRAPHIC] [TIFF OMITTED] 40510A.066
    
    [GRAPHIC] [TIFF OMITTED] 40510A.067
    
    [GRAPHIC] [TIFF OMITTED] 40510A.068
    
    [GRAPHIC] [TIFF OMITTED] 40510A.069
    
    [GRAPHIC] [TIFF OMITTED] 40510A.070
    
    [GRAPHIC] [TIFF OMITTED] 40510A.071
    
    [GRAPHIC] [TIFF OMITTED] 40510A.072
    
    [GRAPHIC] [TIFF OMITTED] 40510A.073
    
    [GRAPHIC] [TIFF OMITTED] 40510A.074
    
    [GRAPHIC] [TIFF OMITTED] 40510A.075
    
    [GRAPHIC] [TIFF OMITTED] 40510A.076
    
    [GRAPHIC] [TIFF OMITTED] 40510A.077
    
    [GRAPHIC] [TIFF OMITTED] 40510A.078
    
    [GRAPHIC] [TIFF OMITTED] 40510A.079
    
    [GRAPHIC] [TIFF OMITTED] 40510A.080
    
    [GRAPHIC] [TIFF OMITTED] 40510A.081
    
    [GRAPHIC] [TIFF OMITTED] 40510A.082
    
    [GRAPHIC] [TIFF OMITTED] 40510A.083
    
    [GRAPHIC] [TIFF OMITTED] 40510A.084
    
    [GRAPHIC] [TIFF OMITTED] 40510A.085
    
    [GRAPHIC] [TIFF OMITTED] 40510A.086
    
    [GRAPHIC] [TIFF OMITTED] 40510A.087
    
    [GRAPHIC] [TIFF OMITTED] 40510A.088
    
    [GRAPHIC] [TIFF OMITTED] 40510A.089
    
    [GRAPHIC] [TIFF OMITTED] 40510A.090
    
    [GRAPHIC] [TIFF OMITTED] 40510A.091
    
    [GRAPHIC] [TIFF OMITTED] 40510A.092
    
    [GRAPHIC] [TIFF OMITTED] 40510A.093
    
    [GRAPHIC] [TIFF OMITTED] 40510A.094
    
    [GRAPHIC] [TIFF OMITTED] 40510A.095
    
    [GRAPHIC] [TIFF OMITTED] 40510A.096
    
    [GRAPHIC] [TIFF OMITTED] 40510A.097
    
    [GRAPHIC] [TIFF OMITTED] 40510A.098
    
    [GRAPHIC] [TIFF OMITTED] 40510A.099
    
    [GRAPHIC] [TIFF OMITTED] 40510A.100
    
    [GRAPHIC] [TIFF OMITTED] 40510A.101
    
    [GRAPHIC] [TIFF OMITTED] 40510A.102
    
    [GRAPHIC] [TIFF OMITTED] 40510A.103
    
    [GRAPHIC] [TIFF OMITTED] 40510A.104
    
    [GRAPHIC] [TIFF OMITTED] 40510A.105
    
    [GRAPHIC] [TIFF OMITTED] 40510A.106
    
    [GRAPHIC] [TIFF OMITTED] 40510A.107
    
    [GRAPHIC] [TIFF OMITTED] 40510A.108
    
    [GRAPHIC] [TIFF OMITTED] 40510A.109
    
    [GRAPHIC] [TIFF OMITTED] 40510A.110
    
    [GRAPHIC] [TIFF OMITTED] 40510A.111
    
    [GRAPHIC] [TIFF OMITTED] 40510A.112
    
    [GRAPHIC] [TIFF OMITTED] 40510A.113
    
    [GRAPHIC] [TIFF OMITTED] 40510A.114
    
    [GRAPHIC] [TIFF OMITTED] 40510A.115
    
    [GRAPHIC] [TIFF OMITTED] 40510A.116
    
    [GRAPHIC] [TIFF OMITTED] 40510A.117
    
    [GRAPHIC] [TIFF OMITTED] 40510A.118
    
    [GRAPHIC] [TIFF OMITTED] 40510A.119
    
    [GRAPHIC] [TIFF OMITTED] 40510A.120
    
    [GRAPHIC] [TIFF OMITTED] 40510A.121
    
    [GRAPHIC] [TIFF OMITTED] 40510A.122
    
    [GRAPHIC] [TIFF OMITTED] 40510A.123
    
    [GRAPHIC] [TIFF OMITTED] 40510A.124
    
    [GRAPHIC] [TIFF OMITTED] 40510A.125
    
    [GRAPHIC] [TIFF OMITTED] 40510A.126
    
    [GRAPHIC] [TIFF OMITTED] 40510A.127
    
    [GRAPHIC] [TIFF OMITTED] 40510A.128
    
    [GRAPHIC] [TIFF OMITTED] 40510A.129
    
    [GRAPHIC] [TIFF OMITTED] 40510A.130
    
    [GRAPHIC] [TIFF OMITTED] 40510A.131
    
    [GRAPHIC] [TIFF OMITTED] 40510A.132
    
    [GRAPHIC] [TIFF OMITTED] 40510A.133
    
    [GRAPHIC] [TIFF OMITTED] 40510A.134
    
    [GRAPHIC] [TIFF OMITTED] 40510A.135
    
    [GRAPHIC] [TIFF OMITTED] 40510A.136
    
    [GRAPHIC] [TIFF OMITTED] 40510A.137
    
    [GRAPHIC] [TIFF OMITTED] 40510A.138
    
    [GRAPHIC] [TIFF OMITTED] 40510A.139
    
    [GRAPHIC] [TIFF OMITTED] 40510A.140
    
    [GRAPHIC] [TIFF OMITTED] 40510A.141
    
    [GRAPHIC] [TIFF OMITTED] 40510A.142
    
    [GRAPHIC] [TIFF OMITTED] 40510A.143
    
    [GRAPHIC] [TIFF OMITTED] 40510A.144
    
    [GRAPHIC] [TIFF OMITTED] 40510A.145
    
    [GRAPHIC] [TIFF OMITTED] 40510A.146
    
    [GRAPHIC] [TIFF OMITTED] 40510A.147
    
    [GRAPHIC] [TIFF OMITTED] 40510A.148
    
    [GRAPHIC] [TIFF OMITTED] 40510A.149
    
    [GRAPHIC] [TIFF OMITTED] 40510A.150
    
    [GRAPHIC] [TIFF OMITTED] 40510A.151
    
    [GRAPHIC] [TIFF OMITTED] 40510A.152
    
    [GRAPHIC] [TIFF OMITTED] 40510A.153
    
    [GRAPHIC] [TIFF OMITTED] 40510A.154
    
    [GRAPHIC] [TIFF OMITTED] 40510A.155
    
    [GRAPHIC] [TIFF OMITTED] 40510A.156
    
    [GRAPHIC] [TIFF OMITTED] 40510A.157
    
    [GRAPHIC] [TIFF OMITTED] 40510A.158
    
    [GRAPHIC] [TIFF OMITTED] 40510A.159
    
    [GRAPHIC] [TIFF OMITTED] 40510A.160
    
    [GRAPHIC] [TIFF OMITTED] 40510A.161
    
    [GRAPHIC] [TIFF OMITTED] 40510A.162
    
    [GRAPHIC] [TIFF OMITTED] 40510A.163
    
    [GRAPHIC] [TIFF OMITTED] 40510A.164
    
    [GRAPHIC] [TIFF OMITTED] 40510A.165
    
    [GRAPHIC] [TIFF OMITTED] 40510A.166
    
    [GRAPHIC] [TIFF OMITTED] 40510A.167
    
    [GRAPHIC] [TIFF OMITTED] 40510A.168
    
    [GRAPHIC] [TIFF OMITTED] 40510A.169
    
    [GRAPHIC] [TIFF OMITTED] 40510A.170
    
    [GRAPHIC] [TIFF OMITTED] 40510A.171
    
    [GRAPHIC] [TIFF OMITTED] 40510A.172
    
    [GRAPHIC] [TIFF OMITTED] 40510A.173
    
    [GRAPHIC] [TIFF OMITTED] 40510A.174
    
    [GRAPHIC] [TIFF OMITTED] 40510A.175
    
    [GRAPHIC] [TIFF OMITTED] 40510A.176
    
    [GRAPHIC] [TIFF OMITTED] 40510A.177
    
    [GRAPHIC] [TIFF OMITTED] 40510A.178
    
    [GRAPHIC] [TIFF OMITTED] 40510A.179
    
    [GRAPHIC] [TIFF OMITTED] 40510A.180
    
    [GRAPHIC] [TIFF OMITTED] 40510A.181
    
    [GRAPHIC] [TIFF OMITTED] 40510A.182
    
    [GRAPHIC] [TIFF OMITTED] 40510A.183
    
    [GRAPHIC] [TIFF OMITTED] 40510A.184
    
    [GRAPHIC] [TIFF OMITTED] 40510A.185
    
    [GRAPHIC] [TIFF OMITTED] 40510A.186
    
    [GRAPHIC] [TIFF OMITTED] 40510A.187
    
    [GRAPHIC] [TIFF OMITTED] 40510A.188
    
    [GRAPHIC] [TIFF OMITTED] 40510A.189
    
    [GRAPHIC] [TIFF OMITTED] 40510A.190
    
    [GRAPHIC] [TIFF OMITTED] 40510A.191
    
    [GRAPHIC] [TIFF OMITTED] 40510A.192
    
    [GRAPHIC] [TIFF OMITTED] 40510A.193
    
    [GRAPHIC] [TIFF OMITTED] 40510A.194
    
    [GRAPHIC] [TIFF OMITTED] 40510A.195
    
    [GRAPHIC] [TIFF OMITTED] 40510A.196
    
    [GRAPHIC] [TIFF OMITTED] 40510A.197
    
    [GRAPHIC] [TIFF OMITTED] 40510A.198
    
    [GRAPHIC] [TIFF OMITTED] 40510A.199
    
    [GRAPHIC] [TIFF OMITTED] 40510A.200
    
    [GRAPHIC] [TIFF OMITTED] 40510A.201
    
    [GRAPHIC] [TIFF OMITTED] 40510A.202
    
    [GRAPHIC] [TIFF OMITTED] 40510A.203
    
    [GRAPHIC] [TIFF OMITTED] 40510A.204
    
    [GRAPHIC] [TIFF OMITTED] 40510A.205
    
    [GRAPHIC] [TIFF OMITTED] 40510A.206
    
    [GRAPHIC] [TIFF OMITTED] 40510A.207
    
    [GRAPHIC] [TIFF OMITTED] 40510A.208
    
    [GRAPHIC] [TIFF OMITTED] 40510A.209
    
    [GRAPHIC] [TIFF OMITTED] 40510A.210
    
    [GRAPHIC] [TIFF OMITTED] 40510A.211
    
    [GRAPHIC] [TIFF OMITTED] 40510A.212
    
    [GRAPHIC] [TIFF OMITTED] 40510A.213
    
    [GRAPHIC] [TIFF OMITTED] 40510A.214
    
    [GRAPHIC] [TIFF OMITTED] 40510A.215
    
    [GRAPHIC] [TIFF OMITTED] 40510A.216
    
    [GRAPHIC] [TIFF OMITTED] 40510A.217
    
    [GRAPHIC] [TIFF OMITTED] 40510A.218
    
    [GRAPHIC] [TIFF OMITTED] 40510A.219
    
    [GRAPHIC] [TIFF OMITTED] 40510A.220
    
    [GRAPHIC] [TIFF OMITTED] 40510A.221
    
    [GRAPHIC] [TIFF OMITTED] 40510A.222
    
    [GRAPHIC] [TIFF OMITTED] 40510A.223
    
    [GRAPHIC] [TIFF OMITTED] 40510A.224
    
    [GRAPHIC] [TIFF OMITTED] 40510A.225
    
    [GRAPHIC] [TIFF OMITTED] 40510A.226
    
    [GRAPHIC] [TIFF OMITTED] 40510A.227
    
    [GRAPHIC] [TIFF OMITTED] 40510A.228
    
    [GRAPHIC] [TIFF OMITTED] 40510A.229
    
    [GRAPHIC] [TIFF OMITTED] 40510A.230
    
    [GRAPHIC] [TIFF OMITTED] 40510A.231
    
    [GRAPHIC] [TIFF OMITTED] 40510A.232
    
    [GRAPHIC] [TIFF OMITTED] 40510A.233
    
    [GRAPHIC] [TIFF OMITTED] 40510A.234
    
    [GRAPHIC] [TIFF OMITTED] 40510A.235
    
    [GRAPHIC] [TIFF OMITTED] 40510A.236
    
    [GRAPHIC] [TIFF OMITTED] 40510A.237
    
    [GRAPHIC] [TIFF OMITTED] 40510A.238
    
    [GRAPHIC] [TIFF OMITTED] 40510A.239
    
    [GRAPHIC] [TIFF OMITTED] 40510A.240
    
    [GRAPHIC] [TIFF OMITTED] 40510A.241
    
    [GRAPHIC] [TIFF OMITTED] 40510A.242
    
    [GRAPHIC] [TIFF OMITTED] 40510A.243
    
    [GRAPHIC] [TIFF OMITTED] 40510A.244
    
    [GRAPHIC] [TIFF OMITTED] 40510A.245
    
    [GRAPHIC] [TIFF OMITTED] 40510A.246
    
    [GRAPHIC] [TIFF OMITTED] 40510A.247
    
    [GRAPHIC] [TIFF OMITTED] 40510A.248
    
    [GRAPHIC] [TIFF OMITTED] 40510A.249
    
    [GRAPHIC] [TIFF OMITTED] 40510A.250
    
    [GRAPHIC] [TIFF OMITTED] 40510A.251
    
    [GRAPHIC] [TIFF OMITTED] 40510A.252
    
    [GRAPHIC] [TIFF OMITTED] 40510A.253
    
    [GRAPHIC] [TIFF OMITTED] 40510A.254
    
    [GRAPHIC] [TIFF OMITTED] 40510A.255
    
    [GRAPHIC] [TIFF OMITTED] 40510A.256
    
    [GRAPHIC] [TIFF OMITTED] 40510A.257
    
    [GRAPHIC] [TIFF OMITTED] 40510A.258
    
    [GRAPHIC] [TIFF OMITTED] 40510A.259
    
    [GRAPHIC] [TIFF OMITTED] 40510A.260
    
    [GRAPHIC] [TIFF OMITTED] 40510A.261
    
    [GRAPHIC] [TIFF OMITTED] 40510A.262
    
    [GRAPHIC] [TIFF OMITTED] 40510A.263
    
    [GRAPHIC] [TIFF OMITTED] 40510A.264
    
    [GRAPHIC] [TIFF OMITTED] 40510A.265
    
    [GRAPHIC] [TIFF OMITTED] 40510A.266
    
    [GRAPHIC] [TIFF OMITTED] 40510A.267
    
    [GRAPHIC] [TIFF OMITTED] 40510A.268
    
    [GRAPHIC] [TIFF OMITTED] 40510A.269
    
    [GRAPHIC] [TIFF OMITTED] 40510A.270
    
    [GRAPHIC] [TIFF OMITTED] 40510A.271
    
    [GRAPHIC] [TIFF OMITTED] 40510A.272
    
    [GRAPHIC] [TIFF OMITTED] 40510A.273
    
    [GRAPHIC] [TIFF OMITTED] 40510A.274
    
    [GRAPHIC] [TIFF OMITTED] 40510A.275
    
    [GRAPHIC] [TIFF OMITTED] 40510A.276
    
    [GRAPHIC] [TIFF OMITTED] 40510A.277
    
    [GRAPHIC] [TIFF OMITTED] 40510A.278
    
    [GRAPHIC] [TIFF OMITTED] 40510A.279
    
    [GRAPHIC] [TIFF OMITTED] 40510A.280
    
    [GRAPHIC] [TIFF OMITTED] 40510A.281
    
    [GRAPHIC] [TIFF OMITTED] 40510A.282
    
    [GRAPHIC] [TIFF OMITTED] 40510A.283
    
    [GRAPHIC] [TIFF OMITTED] 40510A.284
    
    [GRAPHIC] [TIFF OMITTED] 40510A.285
    
    [GRAPHIC] [TIFF OMITTED] 40510A.286
    
    [GRAPHIC] [TIFF OMITTED] 40510A.287
    
    [GRAPHIC] [TIFF OMITTED] 40510A.288
    
    [GRAPHIC] [TIFF OMITTED] 40510A.289
    
    [GRAPHIC] [TIFF OMITTED] 40510A.290
    
    [GRAPHIC] [TIFF OMITTED] 40510A.291
    
    [GRAPHIC] [TIFF OMITTED] 40510A.292
    
    [GRAPHIC] [TIFF OMITTED] 40510A.293
    
    [GRAPHIC] [TIFF OMITTED] 40510A.294
    
    [GRAPHIC] [TIFF OMITTED] 40510A.295
    
    [GRAPHIC] [TIFF OMITTED] 40510A.296
    
    [GRAPHIC] [TIFF OMITTED] 40510A.297
    
    [GRAPHIC] [TIFF OMITTED] 40510A.298
    
    [GRAPHIC] [TIFF OMITTED] 40510A.299
    
    [GRAPHIC] [TIFF OMITTED] 40510A.300
    
    [GRAPHIC] [TIFF OMITTED] 40510A.301
    
    [GRAPHIC] [TIFF OMITTED] 40510A.302
    
    [GRAPHIC] [TIFF OMITTED] 40510A.303
    
    [GRAPHIC] [TIFF OMITTED] 40510A.304
    
    [GRAPHIC] [TIFF OMITTED] 40510A.305
    
    [GRAPHIC] [TIFF OMITTED] 40510A.306
    
    [GRAPHIC] [TIFF OMITTED] 40510A.307
    
    [GRAPHIC] [TIFF OMITTED] 40510A.308
    
    [GRAPHIC] [TIFF OMITTED] 40510A.309
    
    [GRAPHIC] [TIFF OMITTED] 40510A.310
    
    [GRAPHIC] [TIFF OMITTED] 40510A.311
    
    [GRAPHIC] [TIFF OMITTED] 40510A.312
    
    [GRAPHIC] [TIFF OMITTED] 40510A.313
    
    [GRAPHIC] [TIFF OMITTED] 40510A.314
    
    [GRAPHIC] [TIFF OMITTED] 40510A.315
    
    [GRAPHIC] [TIFF OMITTED] 40510A.316
    
    [GRAPHIC] [TIFF OMITTED] 40510A.317
    
    [GRAPHIC] [TIFF OMITTED] 40510A.318
    
    [GRAPHIC] [TIFF OMITTED] 40510A.319
    
    [GRAPHIC] [TIFF OMITTED] 40510A.320
    
    [GRAPHIC] [TIFF OMITTED] 40510A.321
    
    [GRAPHIC] [TIFF OMITTED] 40510A.322
    
    [GRAPHIC] [TIFF OMITTED] 40510A.323
    
    [GRAPHIC] [TIFF OMITTED] 40510A.324
    
    [GRAPHIC] [TIFF OMITTED] 40510A.325
    
    [GRAPHIC] [TIFF OMITTED] 40510A.326
    
    [GRAPHIC] [TIFF OMITTED] 40510A.327
    
    [GRAPHIC] [TIFF OMITTED] 40510A.328
    
    [GRAPHIC] [TIFF OMITTED] 40510A.329
    
    [GRAPHIC] [TIFF OMITTED] 40510A.330
    
    [GRAPHIC] [TIFF OMITTED] 40510A.331
    
    [GRAPHIC] [TIFF OMITTED] 40510A.332
    
    [GRAPHIC] [TIFF OMITTED] 40510A.333
    
    [GRAPHIC] [TIFF OMITTED] 40510A.334
    
    [GRAPHIC] [TIFF OMITTED] 40510A.335
    
    [GRAPHIC] [TIFF OMITTED] 40510A.336
    
    [GRAPHIC] [TIFF OMITTED] 40510A.337
    
    [GRAPHIC] [TIFF OMITTED] 40510A.338
    
    [GRAPHIC] [TIFF OMITTED] 40510A.339
    
    [GRAPHIC] [TIFF OMITTED] 40510A.340
    
    [GRAPHIC] [TIFF OMITTED] 40510A.341
    
    [GRAPHIC] [TIFF OMITTED] 40510A.342
    
    [GRAPHIC] [TIFF OMITTED] 40510A.343
    
    [GRAPHIC] [TIFF OMITTED] 40510A.344
    
    [GRAPHIC] [TIFF OMITTED] 40510A.345
    
    [GRAPHIC] [TIFF OMITTED] 40510A.346
    
    [GRAPHIC] [TIFF OMITTED] 40510A.347
    
    [GRAPHIC] [TIFF OMITTED] 40510A.348
    
    [GRAPHIC] [TIFF OMITTED] 40510A.349
    
    [GRAPHIC] [TIFF OMITTED] 40510A.350
    
    [GRAPHIC] [TIFF OMITTED] 40510A.351
    
    [GRAPHIC] [TIFF OMITTED] 40510A.352
    
    [GRAPHIC] [TIFF OMITTED] 40510A.353
    
    [GRAPHIC] [TIFF OMITTED] 40510A.354
    
    [GRAPHIC] [TIFF OMITTED] 40510A.355
    
    [GRAPHIC] [TIFF OMITTED] 40510A.356
    
    [GRAPHIC] [TIFF OMITTED] 40510A.357
    
    [GRAPHIC] [TIFF OMITTED] 40510A.358
    
    [GRAPHIC] [TIFF OMITTED] 40510A.359
    
    [GRAPHIC] [TIFF OMITTED] 40510A.360
    
    [GRAPHIC] [TIFF OMITTED] 40510A.361
    
    [GRAPHIC] [TIFF OMITTED] 40510A.362
    
    [GRAPHIC] [TIFF OMITTED] 40510A.363
    
    [GRAPHIC] [TIFF OMITTED] 40510A.364
    
    [GRAPHIC] [TIFF OMITTED] 40510A.365
    
    [GRAPHIC] [TIFF OMITTED] 40510A.366
    
    [GRAPHIC] [TIFF OMITTED] 40510A.367
    
    [GRAPHIC] [TIFF OMITTED] 40510A.368
    
    [GRAPHIC] [TIFF OMITTED] 40510A.369
    
    [GRAPHIC] [TIFF OMITTED] 40510A.370
    
    [GRAPHIC] [TIFF OMITTED] 40510A.371
    
    [GRAPHIC] [TIFF OMITTED] 40510A.372
    
    [GRAPHIC] [TIFF OMITTED] 40510A.373
    
    [GRAPHIC] [TIFF OMITTED] 40510A.374
    
    [GRAPHIC] [TIFF OMITTED] 40510A.375
    
    [GRAPHIC] [TIFF OMITTED] 40510A.376
    
    [GRAPHIC] [TIFF OMITTED] 40510A.377
    
    [GRAPHIC] [TIFF OMITTED] 40510A.378
    
    [GRAPHIC] [TIFF OMITTED] 40510A.379
    
    [GRAPHIC] [TIFF OMITTED] 40510A.380
    
    [GRAPHIC] [TIFF OMITTED] 40510A.381
    
    [GRAPHIC] [TIFF OMITTED] 40510A.382
    
    [GRAPHIC] [TIFF OMITTED] 40510A.383
    
    [GRAPHIC] [TIFF OMITTED] 40510A.384
    
    [GRAPHIC] [TIFF OMITTED] 40510A.385
    
    [GRAPHIC] [TIFF OMITTED] 40510A.386
    
    [GRAPHIC] [TIFF OMITTED] 40510A.387
    
    [GRAPHIC] [TIFF OMITTED] 40510A.388
    
    [GRAPHIC] [TIFF OMITTED] 40510A.389
    
    [GRAPHIC] [TIFF OMITTED] 40510A.390
    
    [GRAPHIC] [TIFF OMITTED] 40510A.391
    
    [GRAPHIC] [TIFF OMITTED] 40510A.392
    
    [GRAPHIC] [TIFF OMITTED] 40510A.393
    
    [GRAPHIC] [TIFF OMITTED] 40510A.394
    
    [GRAPHIC] [TIFF OMITTED] 40510A.395
    
    [GRAPHIC] [TIFF OMITTED] 40510A.396
    
    [GRAPHIC] [TIFF OMITTED] 40510A.397
    
    [GRAPHIC] [TIFF OMITTED] 40510A.398
    
    [GRAPHIC] [TIFF OMITTED] 40510A.399
    
    [GRAPHIC] [TIFF OMITTED] 40510A.400
    
    [GRAPHIC] [TIFF OMITTED] 40510A.401
    
    [GRAPHIC] [TIFF OMITTED] 40510A.402
    
    [GRAPHIC] [TIFF OMITTED] 40510A.403
    
    [GRAPHIC] [TIFF OMITTED] 40510A.404
    
    [GRAPHIC] [TIFF OMITTED] 40510A.405
    
    [GRAPHIC] [TIFF OMITTED] 40510A.406
    
    [GRAPHIC] [TIFF OMITTED] 40510A.407
    
    [GRAPHIC] [TIFF OMITTED] 40510A.408
    
    [GRAPHIC] [TIFF OMITTED] 40510A.409
    
    [GRAPHIC] [TIFF OMITTED] 40510A.410
    
    [GRAPHIC] [TIFF OMITTED] 40510A.411
    
    [GRAPHIC] [TIFF OMITTED] 40510A.412
    
    [GRAPHIC] [TIFF OMITTED] 40510A.413
    
    [GRAPHIC] [TIFF OMITTED] 40510A.414
    
    [GRAPHIC] [TIFF OMITTED] 40510A.415
    
    [GRAPHIC] [TIFF OMITTED] 40510A.416
    
    [GRAPHIC] [TIFF OMITTED] 40510A.417
    
    [GRAPHIC] [TIFF OMITTED] 40510A.418
    
    [GRAPHIC] [TIFF OMITTED] 40510A.419
    
    [GRAPHIC] [TIFF OMITTED] 40510A.420
    
    [GRAPHIC] [TIFF OMITTED] 40510A.421
    
    [GRAPHIC] [TIFF OMITTED] 40510A.422
    
    [GRAPHIC] [TIFF OMITTED] 40510A.423
    
    [GRAPHIC] [TIFF OMITTED] 40510A.424
    
    [GRAPHIC] [TIFF OMITTED] 40510A.425
    
    [GRAPHIC] [TIFF OMITTED] 40510A.426
    
    [GRAPHIC] [TIFF OMITTED] 40510A.427
    
    [GRAPHIC] [TIFF OMITTED] 40510A.428
    
    [GRAPHIC] [TIFF OMITTED] 40510A.429
    
    [GRAPHIC] [TIFF OMITTED] 40510A.430
    
    [GRAPHIC] [TIFF OMITTED] 40510A.431
    
    [GRAPHIC] [TIFF OMITTED] 40510A.432
    
    [GRAPHIC] [TIFF OMITTED] 40510A.433
    
    [GRAPHIC] [TIFF OMITTED] 40510A.434
    
    [GRAPHIC] [TIFF OMITTED] 40510A.435
    
    [GRAPHIC] [TIFF OMITTED] 40510A.436
    
    [GRAPHIC] [TIFF OMITTED] 40510A.437
    
    [GRAPHIC] [TIFF OMITTED] 40510A.438
    
    [GRAPHIC] [TIFF OMITTED] 40510A.439
    
    [GRAPHIC] [TIFF OMITTED] 40510A.440
    
    [GRAPHIC] [TIFF OMITTED] 40510A.441
    
    [GRAPHIC] [TIFF OMITTED] 40510A.442
    
    [GRAPHIC] [TIFF OMITTED] 40510A.443
    
    [GRAPHIC] [TIFF OMITTED] 40510A.444
    
    [GRAPHIC] [TIFF OMITTED] 40510A.445
    
    [GRAPHIC] [TIFF OMITTED] 40510A.446
    
    [GRAPHIC] [TIFF OMITTED] 40510A.447
    
    [GRAPHIC] [TIFF OMITTED] 40510A.448
    
    [GRAPHIC] [TIFF OMITTED] 40510A.449
    
    [GRAPHIC] [TIFF OMITTED] 40510A.450
    
    [GRAPHIC] [TIFF OMITTED] 40510A.451
    
    [GRAPHIC] [TIFF OMITTED] 40510A.452
    
    [GRAPHIC] [TIFF OMITTED] 40510A.453
    
    [GRAPHIC] [TIFF OMITTED] 40510A.454
    
    [GRAPHIC] [TIFF OMITTED] 40510A.455
    
    [GRAPHIC] [TIFF OMITTED] 40510A.456
    
    [GRAPHIC] [TIFF OMITTED] 40510A.457
    
    [GRAPHIC] [TIFF OMITTED] 40510A.458
    
    [GRAPHIC] [TIFF OMITTED] 40510A.459
    
    [GRAPHIC] [TIFF OMITTED] 40510A.460
    
    [GRAPHIC] [TIFF OMITTED] 40510A.461
    
    [GRAPHIC] [TIFF OMITTED] 40510A.462
    
    [GRAPHIC] [TIFF OMITTED] 40510A.463
    
    [GRAPHIC] [TIFF OMITTED] 40510A.464
    
    [GRAPHIC] [TIFF OMITTED] 40510A.465
    
    [GRAPHIC] [TIFF OMITTED] 40510A.466
    
    [GRAPHIC] [TIFF OMITTED] 40510A.467
    
    [GRAPHIC] [TIFF OMITTED] 40510A.468
    

</pre></body></html>
